       November 15, 2006




    Information Technology
    Management
    Defense Information Systems Agency
    Controls of the Center for Computing
    Services Placed in Operation and
    Tests of Operating Effectiveness for
    the Period December 1, 2005,
    through July 31, 2006
    (D-2007-022)




                 Department of Defense
                Office of Inspector General
     Quality             Integrity        Accountability
F
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
(703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
604-8932. Ideas and requests can also be mailed to:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704
Table of Contents

Foreword                                                             i

Section I: Independent Service Auditor’s Report                      1

Section II: Information Provided by DISA                             7

        Overview of Operations                                       9
        Overview of the Control Environment                         14
        Information and Communication                               23
        Control Objective and Related Control Activities            24
        User Control Consideration                                  24

Section III: Control Objectives, Control Activities, and Tests of
             Operating Effectiveness                                27

        Security Program                                            29
        Risk Assessments                                            30
        Security Plans                                              31
        Security Management                                         31
        Personnel                                                   32
        Resource Classification                                     36
        Account Management                                          39
        Physical Security                                           41
        Logical Access Controls                                     43
        Networks and Telecommunications                             46
        Incident Response                                           48
        Access Monitoring                                           49
        Change Control                                              51
        Service Continuity                                          54

Section IV: Supplemental Information Provided by DISA               61

Scope                                                               65

Acronyms and Abbreviations                                          67

Report Distribution                                                 69
                                      FOREWORD

This report is intended for the use of Defense Information Systems Agency (DISA)
management, its user organizations, and the independent auditors of its user
organizations.

The DoD Office of Inspector General is implementing a long-range strategy to conduct
audits of DoD financial statements. The Chief Financial Officers Act of 1990, as
amended, mandates that agencies prepare and conduct audits of financial statements. The
reliability of information processed at the DISA sites directly impacts the ability of DoD
to produce reliable, and ultimately auditable, financial statements, which is key to
achieving the goals of the Chief Financial Officers Act.

This report focuses on the DISA Center for Computing Services (CS). CS provides
computer processing for the entire range of combat support functions; including
transportation, logistics, maintenance, munitions, engineering, acquisition, finance,
medicine, and military personnel readiness. CS offers computing services on both CS-
and customer-owned platforms including computer operations, data storage, systems
administration, security management, capacity management, system engineering, web
and portal hosting, architectural development, and performance monitoring.

This examination assessed controls defined by DISA over the CS environment. The
report provides an opinion on the fairness of presentation by DISA of its description of
controls, the suitability of the design of controls, and the operating effectiveness of key
controls that are relevant to audits of a user organization’s financial statements. As a
result, this examination may preclude the need for additional audits of general controls
such as those that were previously performed by user organizations to plan or conduct
financial statement and performance audits. This examination will also provide a
separate audit report with recommendations to management for correction of identified
internal control deficiencies.

Effective internal control is a critical and required element necessary to achieve reliable
information for management reporting and decision-making. The concept of adequate
internal control is the fundamental objective of this American Institute of Certified Public
Accountants Statement on Auditing Standards No. 70 Report. Internal control is a
process designed by management to provide reasonable assurance that the activity
achieves its objectives related to the reliability of financial reporting, the effectiveness of
operations, and compliance with applicable significant laws and regulations. DISA has
implemented internal control standards for the CS environment that require strict
compliance with DoD and DISA policies. The level of compliance by DISA with
specific aspects of these regulations has a direct impact on the accompanying description
of internal controls and related control test results.




                                               i
Section I: Independent Service Auditor’s Report




                       1
In our opinion, the accompanying description of the aforementioned controls presents
fairly, in all material respects, the relevant aspects of controls that had been placed in
operation as of July 31, 2006. Also, in our opinion, except for the deficiencies in the
design of the controls and their effect on the related control objectives described in the
preceding paragraphs, the controls, as described, are suitably designed to provide
reasonable assurance that the specified control objectives would be achieved if the
described controls were complied with satisfactorily and user organizations applied the
controls contemplated in the design of the CS controls.

In addition to the procedures we considered necessary to render our opinion as expressed
in the previous paragraph, we applied tests to specific controls, listed in our description
of the tests of operating effectiveness, to obtain evidence about their effectiveness in
meeting the related control objectives, described in Section III of this report, during the
period from December 1, 2005, to July 31, 2006. The specific controls and the nature,
timing, extent, and results of the tests are listed in our description of the tests of operating
effectiveness. This information has been provided to user organizations of CS and to
their auditors to be taken into consideration, along with information about the internal
control at user organizations, when making assessments of control risk for user
organizations.

As discussed in the accompanying description of controls and in our description of the
tests of operating effectiveness, CS has controls in place to document reportable
computer operations incidents in accordance with DISA CS Instruction 360-225-1,
”Event Reporting,” December 7, 2004. Our tests of operating effectiveness, however,
indicated that not all such incidents are being documented in accordance with the
Instruction. This resulted in the non-achievement of Control Objective 11, “Controls
provide reasonable assurance that an effective incident response capability has been
implemented.”

In our opinion, except for the deficiency in operating effectiveness and the non-
achievement of the related control objective noted in the previous paragraph, the controls
that were tested, as presented in our description of the tests of operating effectiveness,
were operating with sufficient effectiveness to provide reasonable, but not absolute,
assurance that the control objectives specified in our description of those tests were
achieved during the period from December 1, 2005, to July 31, 2006.

The relative effectiveness and significance of specific controls over CS and their effect
on assessments of control risk at user organizations are dependent upon their interaction
with controls and other factors present at individual user organizations. We have
performed no procedures to evaluate the effectiveness of the controls at individual user
organizations.

The description of the controls over CS is as of July 31, 2006, and information about tests
of the operating effectiveness of specific controls covers the period from December 1,
2005, to July 31, 2006. Any projection of such information to the future is subject to the
risk that, because of change, the description may no longer portray the controls in
existence. The potential effectiveness of specific controls at the service organization is
subject to inherent limitations and, accordingly, errors or fraud may occur and not be
detected. Furthermore, the projection of any conclusions, based on our findings, to future
periods is subject to the risk that changes made to the system or controls, or the failure to
make needed changes to the system or controls, may alter the validity of such
conclusions.



                                               4
Section II: Information Provided by DISA




                   7
Overview of Operations
Defense Information Systems Agency

The Defense Information Systems Agency (DISA) is a combat support agency
responsible for planning, engineering, acquiring, fielding, and supporting global net-
centric solutions to serve the needs of the President, Vice President, the Secretary of
Defense, and other DoD Components, under all conditions of peace and war. DISA is
the provider of global net-centric 1 solutions for the nation’s war fighters and all those
who support them in the defense of the Nation. The core services are Acquisition, Center
for Computing Services (CS), Enterprise Services, Network Operations, Network
Services, Net-Centric Enterprise Services, and Global Information Grid (GIG)-
Bandwidth Expansion. Chart 1 provides the organizational structure of DISA.

Chart 1. Defense Information Systems Agency

                                                                                   Senior
                                                          Director                Enlisted
                                                                                  Advisor
                                Chief of                                                                     Chief
                                 Staff                                                                     Technology
                                                                                                             Officer

             Congressional
                Affairs         Protocol
                                                       Vice Director            Component                     NCES
                                                                                Acquisition                  Program
                                                                                 Executive                    Office
           Inspector General



                                                                                  GIG-BE
            EEO & Cultural                                                        Program
              Diversity                                                            Office

                                                                                                        Chief Financial
                                                                                                     Executive/Comptroller
            General Counsel
                                   White House                            White House
                                     Situation                           Communication
                                                                                                     Manpower, Personnel,
                                   Support Staff                            Agency
                                                                                                    and Security Directorate
            NSA Liaison to
               DISA
                                                                                                      Strategic Planning and
                                     GIG                                                              Information Directorate
                                  Enterprise            GIG Combat              GIG
               Small &
                                   Services               Support            Operations
            Disadvantaged
                                 Engineering            Directorate          Directorate
               Business
              Utilization        Directorate                                                        Procurement & Logistics
                                                                                                       Directorate/DITCO


               Defense                                  Center for             Field
            Spectrum Office                             Computing             Security
                                                         Services            Operations
                                                                              Division

              Director for
                Testing                            NCES - Net-Centric Enterprise Services
                                                   GIG - Global Information Grid
                                                   BE - Bandwidth Expansion
                                                   EEO - Equal Employment Opportunity
            Reserve Forces                         NSA - National Security Agency
                                                   DITCO - Defense Information Technology Contracting Organization




1
    A continuously evolving, complex community of people, devices, information and services
    interconnected by a communications network to achieve optimal benefit of resources and better
    synchronization of events.



                                                                     9
This report focuses on the controls over CS, which is under the GIG Combat Support
Directorate. This report addresses controls that are owned by other DISA organizations
like the CIO office and FSO, under the GIG Operations Directorate, as they relate to CS
operations and general controls over the Defense Enterprise Computing Centers
(DECCs).

Center for Computing Services

The CS provides computer processing for the entire gamut of combat support functions,
including transportation, logistics, maintenance, munitions, engineering, acquisition,
finance, medicine, and military personnel readiness. With more than 800,000 users, CS
operates over 1,400 applications in 18 geographically separate facilities using more than
40 mainframes and 3,000 servers. The supported applications: 1) provide command and
control of war fighting forces, 2) facilitate mobility of the war fighters through
maintenance of the airlifted and tanker fleets, 3) provide war fighter sustainment through
resupply and reorder, and 4) manage the medical environment and patient care.

CS features diverse locations, a Defense-in-depth philosophy, and dual high-capacity
Defense Information System Network connectivity. CS also uses automated systems
management to control computing resources and realize economies of scale. CS has
adopted assured computing philosophies and implemented initiatives in the Unisys and
IBM mainframe environments to ensure that information and mission-critical
applications are continuously available to customers. Such initiatives include facility
upgrades, improved software and equipment availability, diverse and redundant
communications, and measures to remotely replicate data. Assured computing, coupled
with the ability to rapidly increase processing and storage capacity through utility
contracts, enables DISA to provide the availability and surge capabilities that customers
require.

CS offers computing services on both DISA- and customer-owned platforms. Computing
services include computer operations, data storage, systems administration, security
management, capacity management, system engineering, web and portal hosting,
architectural development, and performance monitoring. Computing services are
provided by a highly skilled workforce and performed in state-of-the-art computing
facilities strategically located throughout the continental United States; Stuttgart,
Germany; and Pearl Harbor, Hawaii. DISA facilities are operational 24 hours a day,
7 days a week, 365 days a year, and support both unclassified and classified computing
environments. Services are available to the Services, Defense Agencies, and Combatant
Commanders. Chart 2 provides the organizational structure of CS.

CS headquarters is located in Falls Church, Virginia. There are other headquarters
elements located in Chambersburg, Pennsylvania; Denver, Colorado; Dayton, Ohio; and
Pensacola, Florida. CS has a Director, Deputy Director, Chief of Staff, and two Special
Advisors (one business and one technical), and the following five Divisions.

Business Management Center. The Business Management Center (BMC) provides
budgeting, resource management, manpower, personnel, training, business proposals, and
service-level agreements (SLA). There are three primary BMC elements: CS
Headquarters in Falls Church, Virginia; the Blue Ridge Center located in Chambersburg,
Pennsylvania; and the Rocky Mountain Center located in Denver, Colorado.

Programs and Implementation Division. The Programs and Implementation Division
manages and directs assigned programs for CS. Programs include the migration of
legacy systems to standard systems, development of standard business practices, and

                                            10
definition of operational acquisition requirements. The Division Chief sets policy and
procedures for CS project management and has subordinate branches for Implementation
Support, Mainframe, Mid-Tier, and Communications. This division also has liaison
personnel located at each of the Systems Management Centers (SMCs).

Chart 2. Center for Computing Services


                                  Enterprise                 Director
                                 Economics &                                                  Chief of Staff
                                  Acquisition                                              Executive Secretary
                                                         Deputy Director
                                                                                          Management Assistant
                                                                                          Administrative Assistant




            Business               Programs &            Operations                                              Engineering &
           Management            Implementation           Division                   Logistics Division           Architecture
             Center                  Division                                                                       Division




                                            DECC-PE                                    DECC -SMC
                                             Denver                                   Mechanicsburg


                   DECC-PE
                  Jacksonville                                                       DECC-SMC/CCC
                                            DECC-PE                                   Oklahoma City
                                          Chambersburg
                   DECC-PE
                  Rock Island                                                        DECC-SMC/CCC
                                                                                       Montgomery
                                           DECC-PE
                                          Warner Robin
                                                                                       DECC-SMC
                   DECC-PE                                                               Ogden
                    Norfolk
                                            DECC-PE
                                            San Diego                                     DECC
                   DECC-PE                                                                Europe
                    Dayton


                                            DECC-PE                                       DECC
                                            Huntsville                                    Pacific


                  DECC-ISC
                  San Antonio                                           DECC - Defense Enterprise Computing Center
                                            DECC-ISC                    SMC - Systems Management Center
                                            St. Louis                   CCC - Communications Control Center
                                                                        PE - Processing Element
                   DECC-ISC                                             ISC - Infrastructure Services Center
                   Columbus                                             _______ Direct Control
                                                                        __ __ __ Operational Control




Engineering and Architecture Division. The Engineering and Architecture Division
conceives and develops alternative architectural strategies for adding new computer and
telecommunications technologies into systems to increase system security, survivability,
interoperability, endurance, and sustainability. This division directs and performs
complex system engineering trade-off analyses for technology and facilities. The
Engineering and Architecture Division has elements located in Falls Church, Virginia,
and Denver, Colorado.

Logistics Division. The Logistics Division advises the Director of CS on all logistics,
acquisition, and facilities management issues and provides command direction and
guidance to execute integrated logistics support for assigned activities and systems. This

                                                           11
division manages logistics support for assigned operational elements of the Defense
Information Infrastructure for the Directors of DISA and CS. The Logistics Division
provides matrixed, cost-effective, integrated life cycle logistics and acquisition support
services to CS. This division has offices in Chambersburg, Pennsylvania; Denver,
Colorado; and Dayton, Ohio. The Logistics Division also has a liaison officer in each of
the four SMCs.

Operations Division. The Operations Division advises the Director of CS on all
principal operations and has the overall responsibility for issuing operations and security
standards, policies, plans, standard business processes, and standard operating
procedures. This division:

       •   tasks other CS elements as required to achieve the CS mission;

       •   manages and assesses operations and security of all assigned DISA
           information processing, communications, and network systems;

       •   provides appropriate assets in response to contingencies and exercises;

       •   oversees the overall operational performance and effectiveness of the Defense
           Information Infrastructure efforts implemented within CS as well as assigned
           systems;

       •   develops and maintains CS programs for configuration management,
           executive software, capacity management, incoming projects, and
           contingency operations; and

       •   manages the Network Operations for CS and integrates it into the DISA
           Network Operations program.

The Operations Division is organized in three layers: headquarters-level policy and plans,
headquarters-level centralized operations, and direct operations. The direct operations
layers include the operating sites and the Communications Control Centers (CCCs).

        Operating Sites. The operating sites are called DECCs. The DECCs located
outside the continental United States are DECC Pacific in Pearl Harbor, Hawaii and
DECC Europe in Stuttgart, Germany. They provide processing services for DoD
elements within their theater of operations. The DECCs in the continental United States
are divided into the following functional designations.

       •   Systems Management Centers (SMCs). The primary responsibility of each
           SMC is systems management and customer support functions for the
           mainframe and server computing environments. The SMCs are located in
           Mechanicsburg, Pennsylvania; Montgomery, Alabama; Ogden, Utah; and
           Oklahoma City; Oklahoma.

       •   Infrastructure Services Centers (ISCs). ISC personnel perform system
           management for specialized fielding efforts from CS customers. The ISCs are
           in Columbus, Ohio; St. Louis, Missouri; and San Antonio, Texas.




                                            12
           •   Processing Elements (PEs). Facility management, hardware support,
               physical security, touch labor 2 for communication devices, and touch labor
               for media management are the primary responsibilities for each PE. The PEs
               are located in Chambersburg, Pennsylvania; Dayton, Ohio; Denver, Colorado;
               Huntsville, Alabama; Jacksonville, Florida; Norfolk, Virginia; Rock Island,
               Illinois; San Diego, California; and Warner Robins, Georgia.

       Communications Control Centers. The CCCs manage all classified and
unclassified network devices. The CCCs are at DECCs Montgomery and Oklahoma
City.

Field Security Operations

The mission of Field Security Operations (FSO) is to provide information systems,
network security products, and direct funding and reimbursable services throughout DoD,
including the Combatant Commands, the Services, and Defense agencies. The FSO
supports the National Command Authority, Combatant Commanders, Joint Task Force
Computer Network Operations, the Services, and Defense agencies through Global
Network Operations, Computer Emergency Response Capabilities, and Information
System Security Services. The FSO provides such support by directing, managing, and
protecting critical elements of the GIG. In this capacity, the FSO is the Certifying
Authority for the DISA Designated Approving Authority (DAA). The FSO:

           •   develops, implements, and maintains security guidance and processes;

           •   conducts full scope security reviews;

           •   provides security training, security training products, and system
               administrator (SA) certification; and

           •   implements security architecture and information assurance (IA) tools.

Chief Information Officer

The Chief Information Officer (CIO) provides staff support in accomplishing information
resources management duties mandated by the Clinger-Cohen Act. The CIO develops
information resources management and information technology (IT) policies, performs
IT management strategic planning, and incorporates and disseminates architecture and
standards guidance, as well as IT investment criteria. The CIO advises on acquisitions
for DISA IT and coordinates with Office of the Secretary of Defense on information
resources management, IT, and IT acquisition matters. The CIO is the DAA for DISA-
owned and -operated internal IT enclaves and networks. The CIO manages the agency-
wide programs for Privacy Act and records management, and manages implementation of
the DISA Electronic Business and Electronic Commerce.

Manpower, Personnel, and Security

The Manpower, Personnel, and Security (MPS) Directorate provides plans, programs,
and oversight worldwide in the mission areas of civilian personnel, military personnel,
human resource development, organization and manpower program administration,

2
    Touch labor refers to personnel providing physical on-site work needed when systems are remotely
    managed.



                                                     13
payroll, travel, transportation, mail management, visual information, security, and
command information. In addition to worldwide responsibilities, MPS is responsible for
providing direct service support to all DISA activities in the National Capital Region.

The Civilian Personnel Division, within MPS, advises and assists the Director of DISA in
formulating, executing, and evaluating civilian personnel plans and programs; provides
technical guidance and assistance to the DISA managers and employees; and oversees
DISA civilian personnel management activities worldwide.

The DISA Security Division, within MPS, provides security policy, guidance, and
oversight (except for Information Systems Security) to DISA activities worldwide, using
a multi-disciplined and risk management approach. This division also provides
traditional security assistance in information, personnel, physical, and special security
reviews and assessments in support of the DISA Security Certification and Accreditation
process.

Procurement Directorate

The Procurement Directorate has four contracting organizations. One of the four is the
Defense Information Technology Contracting Organization located at Scott Air Force
Base, Illinois. It supports CS and is responsible for the procurement of commercial
information technology services and equipment required by DoD agencies and other U.S.
Government agencies.


Overview of the Control Environment
IA controls are layered and are applied through procedures and physical applications.
Controls are employed to protect resources from theft, loss, damage, inadvertent
disclosure, compromise, and deliberate attempts to gain access by forced or surreptitious
means. Protection is accomplished through the employment of countermeasures to deter,
delay, detect, assess, and respond to unauthorized activity.

CS has the responsibility of providing core services and meeting customer expectations
through professional and consistent operations services and standard implementation of
DoD regulations and policies. CS is responsible for continual refinement and analysis of
operations performance metrics and practices to identify and implement opportunities for
improvement in executing core operations services and maintaining the integrity of the
security posture of the operations environment.

Security Management

Security Review Program Guidance. In general, security review programs focus on
management actions that establish the DAA and the processes that support the
accreditation of an automated information system. DoD implemented the Office of
Management and Budget (OMB) Circular A-130, “Management of Federal Information
Resources,” requirements for a security program through DoD Instruction 5200.40, “DoD
Information Technology Security Certification and Accreditation Process (DITSCAP),”
dated December 30, 1997, and other DoD policies. DISA Instruction 630-230-19,
“Automated Data Processing Information Systems Security Program,” dated July 9,
1996, prescribes policy and assigns responsibilities for implementing, managing, and
maintaining the DISA Information Systems Security Program and implements the DoD


                                           14
programs, including DITSCAP and designation of the DAA. The DITSCAP and
resultant Certification and Accreditation program are major components of the DISA
security review program.

Security Control Program at the DECCs. The DISA Computing Services Security
Handbook (the Security Handbook), the Information Assurance Vulnerability Alert
Handbook, and the STIGs cover the Federal (OMB, DoD, and DISA) requirement for the
primary operational-level guidance for implementation of automated information system
security controls. The DECC security management organization structure and general
business practices support the security program, including review of security controls.

Security Roles and Responsibility

DISA DAA/CIO. The DISA DAA/CIO retains the overall responsibility for the
Certification and Accreditation as it pertains to the DITSCAP process of the CS sites.

CS Information Assurance Manager (IAM). The CS IAM provides guidance and
advice to CS on IA, communications, and emanation security. This position is located
within the FSO. However, the CS IAM reports to the Chief of Operations on security
matters. When there is a disagreement relating to security, the CS IAM can go directly to
the Deputy Director or Director of CS.

CS Security Manager (SM). The CS SM provides guidance and advice to the Director
of CS, his staff, and personnel on physical, industrial, personnel, and information
security, as well as security management. This position is located within the FSO, but
reports to the Chief of Operations on security matters. When there is a disagreement
relating to security, the CS SM can go directly to the Deputy Director or Director of CS.

Site IAM. The site IAM develops and maintains an organization or DoD information
system-level IA program that identifies IA architecture, requirements, objectives, and
policies; personnel; and processes and procedures. The site IAM reports to the Deputy
Director or Director of the site.

Site Information Assurance Officer (IAO). The site IAO assists the site IAM in
meeting the duties and responsibilities discussed previously. The site IAO reports to the
site IAM.

Risk Assessments

CS implemented a risk assessment process to identify and manage risks that could affect
customer organizations. This process requires a formal risk assessment, which is part of
the System Security Authorization Agreement. The process also includes an external and
internal compliance validation and procedures to maintain an acceptable level of risk.

Formal Risk Assessment. The FSO prepares the formal risk assessment for each CS
site. The threat is determined by validating countermeasures that have been implemented
to determine the residual risk. Various tools are used to validate the effectiveness of the
implemented countermeasures, including the Security Readiness Review (SRR) and the
vulnerability scan used to determine the effectiveness of the network, systems, physical,
personnel, information, and industrial security procedural countermeasures. The SRR
and vulnerability scans can be conducted by the FSO or as self-assessments performed by
site personnel. Environmental and facility reviews conducted by CS Facility Engineers
are used to determine the effectiveness of facility and environmental countermeasures.


                                            15
Various Federal Emergency Management Agency web sites are used to determine
weather, climatic, and natural threats.

The IAMs for DECCs are responsible for reviewing and identifying pen and pencil
changes to risk assessment documents on an annual basis. If there are no changes noted,
the formal risk assessment document is not re-dated or re-signed. The CS IAM is
responsible for reviewing and making changes to the DECC PEs risk assessment
documents as they occur. The formal risk assessment is a required appendix to the
System Security Authorization Agreement under the DITSCAP by the DISA DAA (the
DISA CIO). A complete formal review and documented risk assessment is conducted
only every 3 years.

Mission Assurance Category. The mission assurance category (MAC) reflects the
importance of information relative to the achievement of DoD goals and objectives,
particularly the war fighter combat mission. MAC levels are the basis for determining
availability and integrity control requirements. DoD has three defined MAC levels.

       •   MAC I. These systems handle information that is vital to the operational
           readiness or mission effectiveness of deployed and contingency forces in
           terms of both content and timeliness. The consequences of loss of integrity or
           availability of a MAC I system are unacceptable and could include the
           immediate and sustained loss of mission effectiveness. MAC I systems
           require the most stringent protection measures.

       •   MAC II. These systems handle information that is important to the support
           of deployed and contingency forces. The consequences of loss of integrity are
           unacceptable. Loss of availability is difficult to deal with and can only be
           tolerated for a short time. The consequences could include delay or
           degradation in providing important support services or commodities that may
           seriously impact mission effectiveness or operational readiness. MAC II
           systems require additional safeguards beyond best practices to ensure
           assurance.

       •   MAC III. These systems handle information that is necessary for the conduct
           of day-to-day business, but do not materially affect support to deployed or
           contingency forces in the short-term. The consequences of loss of integrity or
           availability can be tolerated or overcome without significant impacts on
           mission effectiveness or operational readiness. The consequences could
           include the delay or degradation of services or commodities enabling routine
           activities. MAC III systems require protective measures, techniques, or
           procedures generally commensurate with commercial best practices.

Compliance Validation

The FSO and CS use automated scripts and the IA connection approval process to
validate DISA compliance. The results are maintained in the Vulnerability Management
System (VMS) and Security Automated Database databases. CS categorizes the findings
or vulnerabilities into four categories, based on severity.

       •   Finding Category I. Any vulnerability that may result in a total loss of
           information or that provides an unauthorized person or software immediate
           access into a system, gains privileged access, bypasses a firewall, or results in
           a denial of service.


                                            16
       •   Finding Category II. Any vulnerability that provides information that has a
           high potential of giving access to an unauthorized person, or provides an
           unauthorized person the means to circumvent security controls.

       •   Finding Category III. Any vulnerability that provides information that could
           lead to an unauthorized access.

       •   Finding Category IV. Any other vulnerability that contributes to degraded
           security.

External Compliance Validation. The external compliance validation is conducted by
the FSO. Because of the number and size of the sites, a complete review of each site
cannot be made on an annual basis. The complete review is conducted during a 3-year
cycle to coincide with the formal accreditation cycle. The number of FSO visits is
dependent on reviewing 33 percent of each site’s assets on an annual basis. In
accordance with DITSCAP, accreditation decisions are made for a maximum of a 3-year
period. Annual reviews conducted by the FSO are known as Information Assurance
Reviews. The Information Assurance Review includes a review of procedures,
documentation, SRRs, and a vulnerability or penetration scan. All Information
Assurance Review results are entered into VMS and briefed to the responsible senior
management and security staff as well as the Director, CS.

System Readiness Reviews. The SRRs are manual (the traditional SRR) or automated
checks (the technical SRR) and vulnerability scans.

        Traditional SRR. The traditional SRR determines whether policies and
procedures on physical, information, personnel, industrial, communications, and
emanations security comply with DoD regulations and DISA instructions. It also
validates whether policies and procedures are correctly and adequately implemented.

        Technical SRR. The technical SRR uses automated checks of network devices,
firewalls, intrusion detection systems, operating systems, databases, and web applications
to verify that standard configuration settings are in accordance with applicable Security
Technical Implementation Guides (STIGs).

        Vulnerability Scans. The Vulnerability Assessment Process uses a commercial
automated scanning tool, Retina Scan, that checks for known or demonstrated
vulnerabilities. The scan is a 2-step process. The first step is external to the perimeter of
the enclave and determines the robustness of perimeter defenses. The second step is
inside the perimeter of the enclave and determines the robustness of the defense of each
device within the enclave. Scan results; when associated with the communications,
server, database, and web applications running on a device; have been adapted to feed
into the SRR database, which is a part of the VMS database. When findings from the
scan cannot be associated with a specific device, it is called a Vulnerability Assessment
Process Report and is associated with the network of that enclave.

Internal Compliance Validation. There are two internal compliance validation
processes. The first validation process is an automated review process that uses scripts
developed by the FSO to test server compliance. Server operating systems managed
locally and remotely by SMCs Mechanicsburg, Montgomery, Ogden, and Oklahoma City
are subject to self-assessment automated scripts that are run on a weekly basis. The
results are posted to the Security Automated Database, and remediation actions are
tracked. The results of the reviews are forwarded to the appropriate SAs and their
supervisors.

                                             17
The second validation process is the IA connection approval process. The IA connection
approval process uses FSO SRR scripts and checklists for servers, databases, and web
services to complete self-assessments of new servers or software upgrades. The self-
assessment results are fed into the SRR database and are forwarded to the connection
approval authority for review and approval. To obtain approval, servers, databases, or
web services must have no open Category I findings on the FSO SRR scripts and
checklists, and at least 85 to 95 percent compliance 3 with all possible Category II and III
findings. The senior person at the DECC SMC and DECC ISC is the approving authority
for those organizations. The CS, Chief of Operations, is the approving authority for all
DECC PEs and all CS Headquarters Divisions.

Vulnerability Databases. CS uses two databases to track vulnerabilities, VMS and
Security Automated Database. VMS is maintained by the FSO, while the Security
Automated Database is maintained by System Support Office (SSO) Montgomery. The
two databases do not share information.

        Vulnerability Management System. VMS is a DoD and DISA vulnerability
management system. The DoD portion of the system is a database known as the
Information Assurance Vulnerability Management database. The Information Assurance
Vulnerability Management database is used by DoD to track acknowledgement and
compliance with alerts released under the Information Assurance Vulnerability
Management program as directed by Chairman of Joint Chiefs of Staff
Instruction 6510-01D, “Information Assurance (IA) and Computer Network Defense.”
The DISA portion of VMS has two databases: one is the SRR database and the other is
the Vulnerability Compliance Tracking System database.

                SRR Database. The SRR database identifies SRR findings, tracks
remediation of those findings, and has an automated waiver process for findings that
cannot be fixed within an established timeframe. The CS IAM is responsible for
checking VMS to determine who reviews open SRR findings and determines what the
plan of action is to remediate the findings. The CS IAM also reviews requests for
waivers to open SRR findings and renders a decision to the DISA approving authority.

               Vulnerability Compliance Tracking System Database. The Vulnerability
Compliance Tracking System database tracks DISA acknowledgement and compliance
with the DoD Information Assurance Vulnerability Management 4 program. The
Vulnerability Compliance Tracking System has a registry of all assets with associated
operating systems and utility software, and identifies the owner of the asset and the
responsible primary and alternate SAs. As alerts are released in the Information
Assurance Vulnerability Management program, the Vulnerability Compliance Tracking
System notifies the SA and IAM of alerts by e-mail. The SA is responsible for
acknowledging receipt of the notification and updating the status of Information
Assurance Vulnerability Management releases in the Vulnerability Compliance Tracking
System.
The CS IAM is responsible for checking VMS to determine who is not in compliance
with Information Assurance Vulnerability Management releases. The CS IAM notifies
the responsible site IAM or IAO of any concerns or assets that are not in compliance
within 7 working days of the compliance date. The Director of CS and primary staff are
briefed on the status of compliance on a weekly basis. The CS IAM also reviews
3
    The percentage varies based on the technology.
4
    Includes alerts, bulletins, and advisories.



                                                     18
requests for extensions to compliance dates and recommends a concurrence or
nonconcurrence to the approving authority, the DISA DAA. The FSO provides technical
reviews for the CS IAM on request.

        Security Automated Database. The Security Automated Database was created
to track and remediate automated SRR self-assessment issues. The automated SRR
program uses automated scripts developed by the FSO to conduct SRRs across the
network using Secure File Transfer Protocol. The FSO has SRR scripts for all Windows,
UNIX, LINUX, Oracle Database, and Standard Query Language databases and is moving
toward running weekly SRRs on all servers, Oracle Databases, and Sequel Server
Databases by the end of 2006. Automated SRR scripts are limited in that they cannot
perform the manual checks of the STIGs. Automated SRR scripts test only the
configuration settings of the hardware and software associated with the IT. Operating
system scripts are capable of checking most of the configuration settings while the
database scripts are capable of checking only approximately 35 percent of the
configuration settings. The FSO and CS are working collectively on improving the SRR
scripts and developing scripts for the other operating systems, the mainframe (IBM and
Unisys) operating systems, and web software.

The security staff at the SMCs reviews and updates findings from the weekly automated
SRR and monitors the remediation, especially any Category I and II findings. All
Category I findings are entered in the trouble ticket system, Trouble Ticketing
Management System, and flagged for immediate remediation. Site directors are briefed
on the results of the automated scripts on a weekly basis and the Director, CS and
primary CS staff are briefed on the results of the automated scripts on a monthly basis.

Information Assurance Monitoring

IA monitoring occurs at the enclave perimeters as well as within systems, database, and
web software running within those systems. In addition to the external FSO reviews and
the internal CS reviews, CS networks are also subject to monitoring by the Global
Network Security Center as part of the GIG monitoring and internal network monitoring.

GIG Monitoring. There are network Intrusion Detection Systems (IDSs) located on the
GIG that monitor standard security policy. The GIG network IDSs, monitored by Global
Network Security Center (the Center), are known as the Joint Intrusion Detection System.
The Center monitors all Joint Intrusion Detection Systems on the GIG within the
continental United States. Other centers are located around the world and all centers feed
into a DoD Global Network Center Network Defense. This concept enables the Center to
identify any information threat on an isolated, regional, or global basis. The Center
notifies any element, to include CS, of any type of potential unauthorized attack or
access. The Center also works with the CS CCCs and individual site IA staff to help
identify, isolate, investigate, and remediate potential threats.

CS Enclave Perimeter Monitoring. All CS enclave perimeters have a layered defense
that consists of an access control list on the perimeter router, firewalls, and network IDS.
The security staff located in the CCCs develops the security profiles for the enclave
perimeter router, firewall, and network IDSs and monitors their respective reports and
audit logs for unauthorized access or activities for the entire continental United States-
based CS network. The security staffs at DECCs Europe and Pacific perform the same
tasks locally for their respective enclave perimeter devices. Suspected incidents are
investigated in concert with trusted agents from the customer base or data owners to
determine the legitimacy of the incidents. If the suspected incident cannot be validated
as authorized, they are reported to the Computing Services Cell within the DISA

                                             19
Network Operation Center and to the Center. The Center then directs all actions for this
incident and closes it or turns it over to the appropriate investigative agency for action.
The Computing Service Cell reports the incident to Computing Services Issue Center
within the CS Operations Division.

The objective of layered defense is to provide a deny-by-default to the perimeter of the
enclave. Deny-by-default can be defined as allowing those addresses, ports, protocols,
accesses and actions that are authorized, while establishing a denial of those that are not
authorized.

Enclave Monitoring. Security staff at the DECCs review system and database audit
records at least weekly for suspicious actions. They perform preliminary inquiries with
the customer, data owners, and others to determine the validity of suspicious actions. If
an action cannot be validated, an unauthorized privilege is identified, or user-level action
is identified, the action is reported to the Center and the CS Global Network Security
Liaison Officer within the CS Operations Division.

Some of these sites also monitor the system and database audit reports using a host-based
IDS. Validated unauthorized privilege or user accesses are reported up the same chain as
the other incidents. All security incidents reported to the Computing Service Issue
Center are briefed to the Director and Chief of Operations for CS every morning,
Monday through Friday.

FSO Monitoring. The FSO conducts external vulnerability scanning twice a year for the
NIPRNET and SIPRNET connections at all sites from Chambersburg. If the scan does
not penetrate or identify a weakness in the enclave perimeter, the scan is terminated. If
the scan does identify a weakness in the enclave perimeter, the scan continues to further
identify weaknesses. The results are entered into VMS and are briefed to the site director
and senior staff.

Segregation of Duties

Mainframes. In the mainframe environment, the IAO applies system security through
the access control program. For the Unisys mainframe, the access control program is a
product known as SIMON. The IBM mainframe Access Control Program products are
Resource Access Control Facility, Access Control Facility 2, and Top Secret. The IAO
also monitors security audit records to identify security concerns.

Servers. The SAs implement security for server, operating systems, databases, and web
servers and web-based applications; primarily UNIX, Windows, Solaris, and Tandem.
The IAO identifies each user’s security profile, provides the SA with requirements, and
then validates that the profile has been implemented as prescribed. The IAO also
monitors security audit records to identify possible security concerns.

Personnel Controls

All civilian personnel are subject to Federal Civilian Personnel Systems. All personnel
must meet employment requirements and are subject to a favorable personnel security
investigation. An authorization document, known as the Joint Table of Distribution
authorizes all government (civilian and military) positions. This document also identifies
the sensitivity, IT level, and security clearance requirement for each position. These
three elements determine the type of investigation required and the type and frequency of
periodic reinvestigations.


                                             20
All personnel are subjected to various levels of personnel security investigation, which is
based on the level of privileges they have within systems. All personnel possess Secret
clearance with IT-2 level, except for the SAs. The SAs are required to have Secret
clearance with IT-1 level.

All personnel security is managed and monitored by the CS SM in Chambersburg, in
concert with site SMs. The CS SM submits all personnel security actions through the
DISA Security Division. The DISA Security Division issues requests for additional
information, intent to deny or revoke, and actual revocations of security clearances or
favorable investigations.

Environmental Controls

The Facilities Engineering Branch, a CS Headquarters organization in Denver,
establishes facility standards for the DECCs on electrical distribution, uninterrupted
power supply, fire detection, fire suppression, and climate control in accordance with
national standards.

Electrical Distribution. Each site has at least two electrical power feeds either from the
installation or another commercial source. There are automatic voltage controls at all
computing facilities and alerts of any potential electrical problems. There is a master
power switch located at the primary entrances in all computer facilities.

Uninterrupted Power Supply. Each site has an uninterrupted power supply consisting
of constantly charged batteries in case of power disruption. The uninterrupted power
supply is constantly monitored and alerts staff of any potential problem. Each site is also
equipped with generators that provide an automatic start-up power source. Backup
power sources are tested on a periodic basis to ensure that they function properly and
provide sufficient electrical power to meet site operating requirements. Additional fuel is
stored on site for sustained backup operations. The fuel is tested on an annual basis for
contamination.

Fire Detection. Most administrative areas are protected by fire detection systems that
alarm either locally or at a responding fire department. All computing facilities are
protected by automatic fire detection systems that alarm at the responding fire
department.

Fire Suppression. All administrative areas are protected by either automatic or manual
fire suppression systems. All computing facilities are protected by automatic fire
detection systems (smoke or fire detectors) that respond to heat or smoke to suppress
fires. Fire prevention is an inherent responsibility of every CS employee and requires
alertness and cooperation from all individuals and agencies that may be in the building.
Each site follows the facility emergency plan for the protection of all Government
employees and private industry tenants.

Climate Control. There are mechanical systems that provide the constant and desired
temperature, humidity, and air particles. The climate control system is constantly
monitored and alerts of any potential problems. Many of the computer facilities are
equipped with water detection systems and a water drainage system to handle excess
water under the raised floor area.




                                            21
Physical Security Controls

Administrative Areas. All buildings and administrative areas have limited entry points
and all are protected by automated access card systems or by guards at the entrances. In
some case, both are used; guards protect the area during normal duty hours from Monday
through Friday, and the automated access card system controls access during all off-duty
hours. All personnel must wear identification badges while in the area. Visitors to all
sites must be signed into the administrative area and obtain local badges that must be
displayed while in the buildings. The issuance of an escort-required or a non-escort
required visitor badge depends on the validation of visitor’s investigation type and
security clearance.

Computer Facility. All computer facilities have implemented the following physical
controls:

       •   controlled access and controlled perimeter for CS facilities located on a
           military or General Services Administration (GSA) installation;

       •   verification of DoD identification such as a Common Access Cards or DISA
           badge;

       •   enclosed perimeter by a fence that controls vehicle and pedestrian access for
           facilities not located on a military or GSA installation;

       •   routine patrol and random door checks performed by local military, DoD, or
           GSA guards in accordance with the local base support agreement; and

       •   access to the administrative areas controlled by guard, mechanical cipher, or
           automated access control system.

Facility Support Areas. Access to facility support areas is controlled either by fencing,
automated access control systems, or key locking devices. These areas are not
considered “Restricted Areas.” Most of the facilities have closed-circuit television
coverage of all doors to computer facilities, buildings, and facility support areas inside
and outside of the buildings. A local guard monitors the cameras at some sites. Where
cameras are not monitored, access is recorded and surveillance tapes are maintained for
at least 30 days.

Information Security Controls

Only properly cleared personnel with a need-to-know are granted access to classified
information. All classified paper documents are stored in GSA-approved security
containers.

Combinations to approved storage areas and security containers are restricted to only
those who need to gain access, and a DISA Form 190A identifies who holds the
combinations. The combination is treated as classified information and must be located
in another security container. All security containers and approved storage areas must
have a Standard Form 702 on the outside and must be annotated with the initials of the
person opening the containers as well as the date and time the container was opened and
closed. Security containers are to be inspected daily and annotated on the Standard
Form 702 to prevent security breach.



                                            22
All classified transmissions that egress the perimeter router are encrypted using National
Security Agency Type I encryption devices and keying material. In some cases,
transmissions inside the enclave are not encrypted but are required to be in an appropriate
protected distribution system.

The Federal Information Processing Standards Publication 140-2, “Security
Requirements for Cryptographic Modules,” requires that encryption be used to protect
the transmission of unclassified information when required by the customer in the SLA.

All computing areas that process classified information must be in an approved classified
information storage area or continuously be manned by properly cleared personnel who
can observe every device (computing and networking) processing classified information.

Unless requested by the customer, all information stored on magnetic media is not
encrypted. National Security Agency devices are used for classified information and
Federal Information Processing Standards Publication 140-2-compliant devices are used
for unclassified information. All classified and unclassified information must be
destroyed using approved methods of destruction in accordance with DoD
Regulation 5200.1-R, “Information Security Program.”

Industrial Security Controls

Contracts must address security requirements. The contract should identify:

       •   the requirement for IT-level and the personnel security investigation;

       •   the requirement for the contractor to provide visit request documentation for
           all contractor personnel that need to visit a Government location;

       •   the requirement to comply with all security policies and procedures at
           Government locations;

       •   the configuration requirement for contractor-provided equipment that will be
           connected to Government networks and enclaves, if no government-furnished
           equipment is provided; and

       •   the requirement for a DD Form 254, for contracts that require access to
           classified information, that outlines the required level of security clearance,
           where classified information can be accessed, and any special instructions.


Information and Communication
Information Systems Overview

The concept of operations for the CS emphasizes and describes a “customer focused”
environment, organized with SMCs, Operations Support Teams, and production
operations environments designed to provide a problem resolution and a situational
awareness posture over all domains of a dynamic production environment that is
operational 24 hours a day, 7 days a week, and 365 days a year.




                                            23
CS customer support demands include multiple classifications of secure environments,
multi-vendor UNIX environments, Intel-based server environments, IBM and Unisys
mainframe environments, multiple commercial database environments, commercial off-
the-shelf applications, government off-the-shelf applications, customized legacy systems,
web-based systems, voice-based systems including commercial telephone switch support,
private branch exchange support, and multiple communications infrastructures. CS must
have knowledge of the products, services, and applications used by its customer base, as
well as information regarding the internal health of the CS IT environment to provide
professional, knowledgeable, and proactive support.

Communication

CS has implemented various methods of communications to ensure that all employees
understand their individual roles and responsibilities. These methods include New
Employee Orientation, Individual Development Plan, CS Plan of the Week that
summarizes various significant events, and the use of e-mail messages to communicate
time-sensitive messages and information. The Director of CS holds a weekly staff
meeting with all CS Division Chiefs. All site Chiefs also hold periodic staff meetings as
appropriate. Every employee within CS has a written position description, and every
position description includes details of what responsibilities are required of the
individual.

The CS BMC is responsible for Headquarters-level customer relations and acts as the
point of contact for the customer. Each operating site within CS maintains detailed
records of problems reported by customer and problems or incidents noted during
processing and monitor such items until they are resolved. The CS Operations Division
Network Operations is responsible for the up-channel reporting of operations incidents.
Categories of incidents have been identified as high impact, high visibility, or high
interest requiring detailed reporting to a defined chain of senior management. Specific
information requirements have been defined for the incident reports to help ensure
completeness, accuracy, and understandability. Standard trouble tickets that provide the
basic information must be cleansed to ensure that these informational requirements are
met and consolidated into the defined incident reporting format.


Control Objectives and Related Control Activities
CS control objectives and related controls are included in Section III, Control Objectives,
Controls Techniques, and Tests of Operating Effectiveness to eliminate the redundancy
that would result from listing them in this section and repeating them in Section III.
Although the control objectives and related controls are included in Section III, they are
nevertheless, an integral part of CS control descriptions.


User Control Considerations
Computing Services User Controls

CS and its customers share the responsibility for the controls over the users. This shared
control responsibility environment normally is delineated between the computing
environment and the applications.


                                            24
Customer User Controls

Customers are expected to have the following general user controls, at a minimum, built
into their applications:

       •   individual user identification and

       •   individual user password or Public Key Infrastructure authentication.

The specific user controls are outlined in the individual customer SLAs.

Service-Level Agreements

An SLA is a contract between a service agency and a customer agency that defines the
parameters of the services. The SLA defines the services to be delivered, problem
management, and customer duties and responsibilities. The SLA outlines, at a minimum,
the responsibilities relating to system access, security controls, data disposition and
sharing, data encryption, and data backup for both CS and the customers.




                                            25
Section III: Control Objectives, Control Techniques, and Tests of
                     Operating Effectiveness




                               27
Security Program
No.   Control Objectives           Control Techniques                        Test of Operating Effectiveness             Results of Testing
1     Controls provide reasonable assurance that the security program effectiveness is monitored and changes are made as
      needed.

1.1   DISA periodically assesses   The FSO conducts annual Technical         Interviewed the FSO regarding the           No relevant exceptions were noted.
      the appropriateness of       Interchange Meetings to assess the        Technical Interchange Meeting process
      security policies and        appropriateness of the STIGs.             used to assess the appropriateness of the
      procedures.                                                            security policies such as the STIGs.

1.2   Management monitors          Monitor the currency of the security      Interviewed FSO personnel regarding         No relevant exceptions were noted.
      compliance with policies     policies checked by the IAR process to    their IAR process. Reviewed
      and procedures.              accommodate new security policy           documentation prepared by FSO
                                   requirements and technology changes.      personnel indicating incorporation of
                                                                             security policy and technology changes
                                                                             into the IAR process.

                                   SRRs are accomplished as a part of the    Inspected 12 SRRs at the FSO to             No relevant exceptions were noted.
                                   IA review and certification and           determine whether they were being
                                   accreditation process. SRRs are           performed.
                                   performed by FSO and the site
                                   personnel.                                Interviewed SMC management to               At all four SMCs, SRRs performed by
                                                                             determine whether the SRRs were being       site personnel were permitted to be
                                                                             performed.                                  made exempt by the site SA, and the
                                                                                                                         version of the SRR automated script
                                                                                                                         program performed by that site did not
                                                                                                                         match the SRR script program provided
                                                                                                                         by FSO.

                                   FSO provides weekly reports on            Inspected a sample of ten Information       No relevant exceptions were noted.
                                   Information Assurance Vulnerabilities     Assurance Vulnerabilities Alerts reports
                                   Alerts Category I and II to CS senior     issued by the FSO. Determined whether
                                   management.                               these reports were issued on a weekly
                                                                             basis.



                                                                            29
No.   Control Objectives         Control Techniques                          Test of Operating Effectiveness             Results of Testing
1.3   Corrective actions are     Corrective actions to findings noted        Interviewed the SMC IAMs and the FSO        No relevant exceptions were noted.
      effectively implemented.   during the IAR are monitored through        personnel or staff regarding their
                                 VMS by the IAM at the CS site and CS        monitoring of vulnerabilities as recorded
                                 headquarters and by the certifying          in the VMS system.
                                 authority.



Risk Assessments
No.   Control Objectives         Control Techniques                          Test of Operating Effectiveness             Results of Testing
2     Controls provide reasonable assurance that risks are periodically assessed and appropriate steps are taken to mitigate risks.

2.1   Risk assessments are       Enterprise risk assessments are prepared    Interviewed FSO personnel and the CS        No relevant exceptions were noted.
      performed according to     by CS based on the site risk assessment     IAM to identify their procedures for
      current Federal and DoD    results.                                    preparing the enterprise-wide and site
      requirements.                                                          risk assessments and to determine
                                                                             whether risk assessments were
                                                                             documented.

                                 Risk assessments are performed annually     Inspected the annual risk assessments for   No relevant exceptions were noted.
                                 in accordance with DoD                      compliance with DoD Instruction
                                 Instruction 5200.40.                        5200.40.

                                 In accordance with the DoD and DISA         Inspected a sample of four Federal          Two SMCs did not submit POA&Ms
                                 guidance for Federal Information            Information Security Management Act         for all noncompliance with high-risk
                                 Security Management Act reporting,          POA&M reports from the SMCs to              vulnerabilities. Findings pertaining to
                                 Plans of Action and Milestones              determine whether all high-risk             self-assessments conducted by two
                                 (POA&Ms) are prepared by CS sites for       vulnerabilities listed in VMS were          SMCs were not uploaded as POA&Ms
                                 all noncompliant, high-risk                 included.                                   into the VMS.
                                 vulnerabilities, and are updated
                                 quarterly.




                                                                            30
Security Plans
No.   Control Objectives        Control Techniques                           Test of Operating Effectiveness             Results of Testing
3     Controls provide reasonable assurance that site security plans are in place; prepared, documented, and approved in
      accordance with Federal and DoD requirements; and current.

3.1   Site security plans are   The security plan is documented by each      Obtained and inspected security plan        Of 17 DECCs tested, 1 DECC did not
      documented.               CS site, addresses topics prescribed in      documentation from the DAA for 17           have a security plan.
                                OMB Circular A-130 and is on file at the     DECCs for compliance with OMB
                                DAA.                                         Circular A-130 and DoD Instruction
                                                                             5200.40.

3.2   Site security plans are   The security plan for all sites is signed    Inspected the security plans or the site    Of 17 DECCs tested, 1 DECC did not
      approved.                 by the senior official at the CS site.       accreditation memos of 17 DECCs to          have a security plan.
                                                                             determine whether they had been
                                                                             approved.

3.3   Site security plans are   As part of the System Security               Inspected the security plans for 17         Of 17 DECCs tested, 1 DECC did not
      current.                  Authorization Agreement (SSAA), the          DECCs to determine whether they had         have a security plan. Security plans for
                                security plan is reviewed annually by the    been reviewed annually by the CS            two DECCs had not been reviewed and
                                CS operations chief and updated as           operations chief and updated as required.   updated by the CS operations chief.
                                required.



Security Management
No.   Control Objectives        Control Techniques                           Test of Operating Effectiveness             Results of Testing
4     Controls provide reasonable assurance that a security management structure is established and security responsibilities are
      clearly assigned.

4.1   A security management     The “DISA Computing Services                 Inspected the DISA Computing Services       No relevant exceptions were noted.
      structure has been        Enterprise Security – Roles and              Enterprise Security Roles and
      established with CS.      Responsibilities Concept of Operations,”     Responsibilities Concept of Operations,
                                version 1.1, dated March 20, 2006,           March 20, 2006, version 1.1, to



                                                                            31
No.   Control Objectives             Control Techniques                            Test of Operating Effectiveness               Results of Testing
                                     defines the responsibilities of security      determine whether the responsibilities of
                                     officials at all levels in CS, to include     security officials for all levels at CS and
                                     FSO.                                          FSO have been defined.

4.2   Information security           The roles and responsibilities are            Inspected appointment orders for 100          Of 100 appointment orders tested,
      responsibilities are clearly   outlined in the “DISA Computing               IAM, IAO, and SM positions at the             appointment orders for 16 IAM, IAO,
      assigned.                      Services Enterprise Security – Roles and      SMCs and ISCs to assess the                   and SM positions were neither complete
                                     Responsibilities Concept of Operations,”      appropriateness and definition of roles.      nor compliant with the requirements
                                     version 1.1, dated March 20, 2006. The        Compared appointment orders to the            defined in the DISA Computing
                                     IAM, IAO, and SM are assigned through         DISA Computing Services Enterprise            Services Enterprise Security Roles and
                                     appointment orders.                           Security Roles and Responsibilities           Responsibilities Concept of Operations,
                                                                                   Concept of Operations, March 20, 2006,        March 20, 2006, version 1.1. The
                                                                                   version 1.1, for appropriateness and          exceptions were from two SMCs.
                                                                                   completeness.

4.3   DISA employees are aware       CS personnel are required to take initial     Inspected training records for a sample       For 25 of 167 personnel tested, IA
      of security policies.          security awareness training before            of 167 CS personnel at the SMCs, ISCs,        training was not completed prior to
                                     gaining access to any system and              and one headquarters element to               users being granted access to the system
                                     required to take annual refresher security    determine whether the required training       or training records were not maintained.
                                     awareness training. MPS manages the           was completed timely and whether              The exceptions were from one SMC
                                     training and records the completion for       training records were maintained.             and one ISC.
                                     all CS Headquarters personnel located
                                     within the National Capitol Region. The
                                     training completion is recorded and
                                     maintained by the CS IAM or SM for all
                                     other CS personnel.



Personnel
No.   Control Objectives             Control Techniques                            Test of Operating Effectiveness               Results of Testing
5     Controls provide reasonable assurance that effective personnel policies have been implemented.

5.1   Employee (government           Personnel security checks are performed       Inspected a sample of 102 security            No relevant exceptions were noted
      and contractor)                to determine that a valid and current         background investigations for personnel
      background investigations,     personnel security investigation has been     at the SMCs and ISCs to determine
                                                                                  32
No.   Control Objectives            Control Techniques                            Test of Operating Effectiveness            Results of Testing
      hiring, transferring, and     conducted for each person at the site         whether the investigations were valid
      termination policies          based on the individual’s duties and          and current.
      address security and are in   tasks.
      compliance with DoD
      Instruction 8500.2.           The Security Handbook prescribes              Inspected the Security Handbook to         No relevant exceptions were noted.
                                    guidelines addressing position sensitivity    determine whether position sensitivity
                                    designations for military and civilian        designations for military and civilian
                                    employees.                                    employees were included.

                                    Termination requires debriefing and           Inspected a sample of 36 terminated        No relevant exceptions were noted.
                                    revoking of all access. Termination           employees and contractors for the SMCs
                                    debriefing (DISA Form 553) must be            and one ISC to determine whether the
                                    signed and maintained by the site             employee’s system access was revoked
                                    security manager.                             and whether a signed debriefing (DISA
                                                                                  Form 553) was on file.

                                    Security requirements for contractors are     Inspected a sample of 45 contracts         No relevant exceptions were noted.
                                    included in the contract requirements.        issued by the Defense Information
                                                                                  Technology Contracting Organization to
                                                                                  determine whether security requirements
                                                                                  were included.

                                    Personnel security compliance is              Interviewed the CS security manager at     No relevant exceptions were noted.
                                    monitored by CS security managers.            three SMCs to determine whether
                                                                                  personnel security compliance was
                                                                                  monitored.

5.2   Job descriptions for          All civilian positions have position          Inspected a sample of 22 personnel files   No relevant exceptions were noted.
      government employees          descriptions.                                 at 4 SMCs and 2 ISCs for civilian
      have been documented,                                                       positions to determine whether the
      and employees understand                                                    position descriptions existed.
      their duties and
      responsibilities.             All contractor job requirements are           Inspected a sample of 45 contracts         No relevant exceptions were noted.
                                    documented within the applicable              issued by the Defense Information
                                    contract.                                     Technology Contracting Organization to



                                                                                 33
No.   Control Objectives             Control Techniques                           Test of Operating Effectiveness              Results of Testing
                                                                                  determine whether the documented
                                                                                  contractor job requirements were
                                                                                  included in the contracts.

                                     Supervisors at all levels develop and        Inspected a sample of 36 employee            Of 36 employee performance plans
                                     maintain a performance plan for each         performance plans at the SMCs and the        reviewed, 4 did not reflect the relevant
                                     individual and ensure that the plan          ISC to determine whether the plans           position description. The exceptions
                                     requires that the employee’s performance     reflect the relevant position description.   were from one SMC and one ISC.
                                     be based on the position description.

                                     Supervisors have access to staff position    Interviewed supervisors of 25 sampled        No relevant exceptions were noted.
                                     descriptions, and ensure that they           employees at 3 SMCs and 2 ISCs as to
                                     correctly identify the task and functions    their awareness of the tasks and
                                     of the position.                             functions required of the employees.
                                                                                  Compared their answers to the relevant
                                                                                  position description for appropriateness.

                                     CS management ensures that job               Interviewed MPS and CS management            No relevant exceptions were noted.
                                     descriptions and duties comply with          to determine whether they were in
                                     DISA Instruction 220-15-55.                  compliance with DISA Instruction
                                                                                  220-15-55.

                                     Local written instructions may be            Inspected a sample of 4 local written        No relevant exceptions were noted.
                                     followed for the performance of work.        standard operating procedures at three
                                                                                  SMCs for reasonableness in providing
                                                                                  guidance for the performance of work.

5.3   Employees (government          SA certification requirements are            Interviewed FSO management regarding         No relevant exceptions were noted.
      and contractor) are            established by DoD and DISA policies.        DoD and DISA policies used to establish
      adequately trained and                                                      SA certification requirements.
      possess the required skills.
                                     SA certification requirements are tracked    Inspected SA certification                   Certification documentation for 25 of
                                     by the FSO.                                  documentation tracked by the FSO for a       112 SAs tracked by the FSO was not
                                                                                  sample of 112 SMC and ISC SAs to             complete. The 25 exceptions were from
                                                                                  determine appropriateness and                2 SMCs.
                                                                                  completeness of FSO data.

                                                                                 34
No.   Control Objectives             Control Techniques                           Test of Operating Effectiveness              Results of Testing
                                                                                  Interviewed FSO personnel and the            No relevant exceptions were noted.
                                                                                  IAMs at the SMCs to determine whether
                                                                                  SA privileges are reviewed annually.

                                     Training requirements for IAMs and           Interviewed FSO and CS management            No relevant exceptions were noted.
                                     users are established by DoD and DISA        regarding DoD and DISA policies used
                                     policies.                                    to establish training requirements.

                                                                                  Inspected relevant DoD and DISA              No relevant exceptions were noted.
                                                                                  policies for appropriateness regarding
                                                                                  training requirements.

                                     Completion of the IAM and users              Interviewed FSO staff to determine the       No relevant exceptions were noted.
                                     training is tracked by the FSO and           process for tracking SA certification
                                     reviewed annually.                           requirements.

5.4   Confidentiality or             A nondisclosure statement is a required      Inspected a sample of 51 nondisclosure       No relevant exceptions were noted.
      nondisclosure agreements       performance element for all employees.       statements for personnel at the SMCs,
      are documented for all CS                                                   ISCs, and one headquarters element to
      employees.                                                                  determine whether they were signed by
                                                                                  the employee.

5.5   Incompatible duties have       The Security Handbook describes the          Inspected the CSD Operations Policy          No relevant exceptions were noted.
      been identified and policies   segregation of duties of CS personnel.       Letter CSD 06-15 “Segregation of
      implemented to segregate       DISA CS Operations Policy Letter 06-15       Duties” and Security Handbook
      these duties.                  “Segregation of Duties” describes the        regarding the segregation of
                                     segregation of duties of CS personnel not    incompatible duties.
                                     outlined in the Security Handbook.

                                     SLAs also describe the roles and             Inspected a sample of 45 SLAs at the         No relevant exceptions were noted.
                                     responsibilities of CS in maintaining        BMC to determine whether they
                                     customer platforms.                          describe the roles and responsibilities of
                                                                                  CS for the maintenance of customer
                                                                                  platforms.




                                                                                 35
Resource Classification
No.   Control Objectives             Control Techniques                             Test of Operating Effectiveness          Results of Testing
6     Controls provide reasonable assurance that information resources are classified according to their criticality and sensitivity.

      Design Weakness:
      CS did not have control procedures in place to ensure that information resources criticality and sensitivity were known and properly documented. Specifically,
      control procedures are needed to ensure the following: (a) customers define the criticality and sensitivity within the SLAs, (b) customers define the data
      disposition and data sharing process, and (c) customers sign the SLAs.

6.1   Resource classifications       Data owners are responsible for defining       Inspected DITSCAP documentation for      Of 17 site DITSCAP packages tested, 3
      and related criteria have      their information resources criticality in     17 DECCs to determine whether            did not define the criticality of
      been established.              accordance with DoD Instruction 8500.2,        criticality of information resources     information resources.
                                     and CS is responsible for documenting          established by data owners in
                                     the criticality of the systems in the site     accordance with DoD Instruction 8500.2
                                     SSAA, SLA, or VMS.                             was documented by CS in the site’s
                                                                                    SSAA, SLA, or VMS.

6.2   DISA has classified all        In accordance with DoD Directive               Inspected a sample of 45 SLAs at the     Refer to item (a) of the design
      DISA-owned assets              8500.1 and DoD Instruction 8500.2              BMC to determine whether the             weakness. None of the 45 SLAs tested
      according to criticality and   system owners or customers establish the       documentation was completed in           had MAC levels documented for their
      sensitivity.                   MAC level based on their assessment of         accordance with DoD Directive 8500.1     applications or systems.
                                     the critical nature of their application or    and DoD Instruction 8500.2 and system
                                     system.                                        owners or customers included the MAC
                                                                                    level.

                                     The site IAM has reviewed and accepted         Inspected the SSAA information           Two of the SMCs tested did not
                                     the criticality of the DISA-owned              criticality for the SMCs for a DISA-     evidence the site IAM’s review and
                                     resources as defined by individual             owned resource to determine whether      acceptance of the criticality of DISA-
                                     Authority to Operate or Interim                the site IAM has reviewed and accepted   owned resources.
                                     Authority to Operate.                          the criticality of the DISA-owned
                                                                                    resource.




                                                                                   36
No.   Control Objectives             Control Techniques                          Test of Operating Effectiveness            Results of Testing
6.3   Customers classify their       CS customers communicate MAC levels         Requested initial business proposals and   MAC levels were not documented in
      applications in the business   to CS for their applications during the     interviewed DISA personnel to              initial business proposals according to
      proposal or SLAs.              initial business proposal or in the SLA.    determine whether MAC levels were          DISA personnel.
                                                                                 included in initial business proposals.

                                                                                 Inspected a sample of 45 SLAs at the       Refer to item (a) of the design
                                                                                 BMC to determine whether the MAC           weakness. None of the 45 SLAs and
                                                                                 level was communicated to CS by the        corresponding business proposals tested
                                                                                 CS customer.                               had MAC levels documented for their
                                                                                                                            applications or systems.

6.4   Data management and the        The support agreement portion of the        Interviewed CS personnel at the BMC        Refer to item (b) of the design
      disposition and sharing of     SLAs defines the data disposition and       about the SLA process. Inspected a         weakness. None of the 45 SLAs tested
      data requirements are          data sharing process.                       sample of 45 SLAs at the BMC to            had a defined data disposition and data
      identified in the SLAs.                                                    determine whether the support              sharing process.
                                                                                 agreement portion of the SLA defines
                                                                                 the data disposition and data sharing
                                                                                 process.

                                     SLAs are current and available in the       Interviewed CS personnel at the BMC        Refer to item (c) of the design
                                     Knowledge Management System.                about the SLA update and approval          weakness. None of the 45 SLAs tested
                                                                                 process. Inspected a sample of 45 SLAs     had evidence of approval signatures.
                                                                                 at the BMC to identify the date in which
                                                                                 the SLA was updated and approved in
                                                                                 accordance with CS policy.

                                                                                 Observed the Knowledge Management          No relevant exceptions were noted.
                                                                                 System to determine whether the SLA
                                                                                 was available.




                                                                                37
No.   Control Objectives        Control Techniques                           Test of Operating Effectiveness            Results of Testing
                                If required by the customer,                 Inspected a sample of 45 SLAs at the       No relevant exceptions were noted.
                                communications are secured by Type I         BMC to determine whether                   None of the 45 SLAs tested had
                                or Type III cryptography devices.            cryptography requirements existed and if   cryptography requirements.
                                                                             so, observed the physical existence of
                                                                             the related Type I or Type III
                                                                             cryptography hardware and software.

                                All requirements (if applicable) for         For the 45 SLAs sampled in the previous    No relevant exceptions were noted.
                                communications secured by Type I or          test, determined whether cryptography      None of the 45 SLAs tested had
                                Type III cryptography devices are            devices (both Type I and Type III) at      cryptography requirements.
                                documented in the applicable SLA.            each of the Oklahoma City and
                                                                             Montgomery CCCs existed.

6.5   CS has logical controls   If required by the customer where the        Inspected a sample of 45 SLAs at the       No relevant exceptions were noted.
      over data files and       data or the transmission of data needs to    BMC to determine whether the SLA           None of the 45 SLAs tested had
      software programs.        be protected, encryption tools such as       requires encryption tools. For those       encryption requirements.
                                Virtual Private Network, Secure Socket       SLAs that required encryption tools,
                                Layer, Secure Shell, and Public Key          observed the related hardware and
                                Infrastructure are used in accordance        software devices to determine whether
                                with DoD STIGs.                              the devices existed.

6.6   CS correctly uses         All requirements (if applicable) for         Inspected a sample of 45 SLAs at the       No relevant exceptions were noted.
      cryptographic tools.      encryption are documented in the             BMC to determine whether encryption        None of the 45 SLAs tested had
                                applicable SLA.                              requirements, if applicable, are           encryption requirements.
                                                                             documented in the applicable SLA.

                                If required by the customer, DoD             Inspected a sample of 45 SLAs at the       No relevant exceptions were noted.
                                encryption policy is applied in              BMC to determine whether the DoD           None of the 45 SLAs tested had
                                accordance with Federal Information          encryption policy was applied in           encryption requirements.
                                Processing Standards Publication 140-2.      accordance with Federal Information
                                                                             Processing Standards Publication 140-2
                                                                             when required by the customer.




                                                                            38
Account Management
No.   Control Objectives          Control Techniques                            Test of Operating Effectiveness            Results of Testing
7     Controls provide reasonable assurance that user account management procedures are implemented and effective.

7.1   Authorized owners and       In accordance with DoD Instruction            Inspected the DD Form 2875 for a           No relevant exceptions were noted.
      their access right are      8500.2 and appropriate DoD STIGs, the         sample of 107 privileged users at the
      identified for DISA-owned   site IAM or IAO maintains a list of all       SMCs and ISCs, to determine whether
      assets.                     approved privileged user accounts             the privileged users were approved.
                                  created by CS SAs for operating
                                  systems, networks, databases, and web
                                  administrators.

                                  Each privileged user identification issued    Inspected a sample of 107 privileged       No relevant exceptions were noted
                                  is evidenced by a DD Form 2875,               users for the SMCs and ISCs to
                                  System Access Authorization Request           determine whether a DD Form 2875 (or
                                  (or its predecessor, DISA Form 41) or an      its predecessor, DISA Form 41) was
                                  equivalent local form that has                maintained by the data owner, approved
                                  incorporated all the requirements of the      by the user’s supervisor or data owner
                                  DD Form 2875. DD Form 2875 requires           and validated by the site security
                                  approval from the user’s supervisor and       manager.
                                  validation of user personnel security
                                  investigation based on access requested.

                                  The DoD Instruction 8500.2, as                Inspected DoD Instruction 8500.2 and       No relevant exceptions were noted.
                                  supplemented by CS Policy, details the        the Security Handbook to determine
                                  process for granting access to system         whether a process for granting access to
                                  resources.                                    system resources existed.

7.2   IAOs or SAs periodically    Periodic revalidation of DISA-managed         Interviewed the IAM or IAO at the          No relevant exceptions were noted.
      review authorization        systems, in accordance with applicable        SMCs and ISCs and identified how the
      listings to determine       DoD STIGs and CS Policy, is conducted         annual privileged account review is
      appropriateness.            annually by the local IAM or IAO to           performed.
                                  identify privileged accounts and
                                  privileged user accesses that are no



                                                                               39
No.   Control Objectives        Control Techniques                        Test of Operating Effectiveness            Results of Testing
                                longer needed. (Customer rental space
                                                                          Inspected supporting documentation for     No relevant exceptions were noted.
                                excluded.)
                                                                          the annual privileged account reviews at
                                                                          the SMCs and ISCs to determine
                                                                          whether the annual reviews were
                                                                          performed.

7.3   Emergency and temporary   Emergency and temporary access            Interviewed CS personnel to determine      No relevant exceptions were noted.
      access is controlled.     authorizations are:                       whether CS had established policies and
                                                                          procedures for the creation and
                                •   documented and maintained on file,
                                                                          maintenance of emergency and
                                •   approved by appropriate
                                                                          temporary access to CS-owned or
                                    management,
                                                                          -administered systems.
                                •   securely communicated to the IAM,
                                    and
                                                                          Interviewed CS personnel at the SMCs       No relevant exceptions were noted.
                                •   terminated after a predetermined
                                                                          to determine whether emergency
                                    period on a case by case basis.
                                                                          changes were made. For the two SMCs
                                                                          that had emergency changes, a sample of
                                                                          seven emergency and temporary user
                                                                          access requests was inspected to
                                                                          determine whether the authorizations
                                                                          were:
                                                                          •   documented and maintained on file,
                                                                          •   approved by appropriate
                                                                              management,
                                                                          •   securely communicated to the IAM,
                                                                              and
                                                                          •   terminated after a predetermined
                                                                              period on a case by case basis.




                                                                         40
Physical Security
No.   Control Objectives          Control Techniques                           Test of Operating Effectiveness            Results of Testing
8     Controls provide reasonable assurance that adequate physical controls have been implemented.

8.1   Perimeter (Base Level)      Physical safeguard procedures include:       Observed the physical inner and outer      No relevant exceptions were noted.
      physical controls have                                                   perimeters of the CS facility for 17
                                  •   controlled access and controlled
      been implemented.                                                        DECCs visited to determine whether:
                                      perimeters for CS facilities located
                                      on military or GSA installations;        •   individuals attempting to access the
                                  •   verification of DoD identification,          CS facility are required to present
                                      such as a Common Access Card or              valid DoD identification;
                                      DISA badge;                              •   perimeter security is in place to
                                  •   enclosed perimeter, by a fence that          control vehicle and pedestrian
                                      controls vehicle and pedestrian              access;
                                      access, for CS facilities not located    •   access to administrative areas is
                                      on military or GSA installation;             controlled by a guard, mechanical
                                  •   routine patrol and random door               cipher lock, or automated access
                                      checks performed by the local                control system; and
                                      military, DoD, or GSA guards in          •   routine patrol and random door
                                      accordance with local base support           checks are performed by local
                                      agreement, if required; and                  military, DoD, or GSA guards in
                                  •   controlled access to the                     accordance with applicable base
                                      administrative areas by guard,               support agreement(s).
                                      mechanical cipher, or automated
                                      access control system.
8.2   Building, administration,   Computer facilities have at least two        Observed access to the computer facility   Of 17 DECCs tested, 4 did not use 2-
      and computer facility       levels of physical security controls.        for 17 DECCs visited to determine          factor authentication to access the
      physical controls have      Access to the computer facility requires     whether such access requires positive      computer facility.
      been implemented.           positive identification of the employee      identification of the employee through
                                  through the use of something they have       the use of something they have, for
                                  (for example, proximity card or DoD          example, a proximity card or DoD
                                  identification card) and something they      identification card; something they
                                  know (for example, personal                  know, for example, a personal
                                  identification number) or something they     identification number; or something they
                                  are (for example, biometrics).               are, for example, biometrics.



                                                                              41
No.   Control Objectives         Control Techniques                            Test of Operating Effectiveness              Results of Testing
                                 Employees must wear their picture             Observed CS employees at 17 DECCs            No relevant exceptions were noted.
                                 identification cards above the waist.         visited to determine whether picture
                                                                               identification cards are worn above the
                                                                               waist.

                                 The area of the computer facility that        Observed computer facilities containing      No relevant exceptions were noted.
                                 contains unclassified equipment or            the servers and related infrastructure for
                                 information is in compliance with the         17 DECCs visited to determine whether
                                 requirements outlined in DoD                  the security around the computer facility
                                 Regulation 5200.8, for level C Restricted     was in compliance with DoD Regulation
                                 Areas, by having:                             5200.8, for level C Restricted Areas, by
                                 • an electronic security system,              having:
                                 • entry and circulation control,              • an electronic security system,
                                 • barriers, and                               • entry and circulation control,
                                 • security patrols or a designated            • barriers, and
                                      response force.                          • security patrols or a designated
                                                                                    response force.
8.3   Visitors are controlled.   All CS site SMs must maintain an              Inspected access authorization               Access authorization documentation
                                 authorized access list to the CS facility.    documentation for a sample of 566            was not complete for 34 of 566
                                                                               employees at the SMCs, ISCs, 7 PEs,          employees tested. The 34 employees
                                                                               and DECC Pacific to determine whether        were from 2 of 15 DECCs tested.
                                                                               computer facility access was appropriate.

                                 Visitors who do not have the appropriate      Interviewed the site SM for 17 DECCs         No relevant exceptions were noted.
                                 security investigation or clearance will      visited about the process for escorting
                                 be escorted at all times while in the         visitors and the local site-specific badge
                                 computing facility.                           color codes.

                                                                               Observed visitors with badges that           No relevant exceptions were noted.
                                                                               require escort to determine whether such
                                                                               visitors were escorted at all times.

                                 Visitors to the computing facilities that     Interviewed the local security officer and   No relevant exceptions were noted.
                                 are not on the authorized access list must    security guard for 17 DECCs visited
                                 be validated by the local security            about handling visitors not on the
                                 manager, signed in and out of the             authorized access list.
                                 facility, and escorted as required.
                                                                              42
No.   Control Objectives           Control Techniques                              Test of Operating Effectiveness             Results of Testing
                                                                                   Observed visitors to CS facilities to       No relevant exceptions were noted.
                                                                                   determine whether the visitors were
                                                                                   validated by the local security officer,
                                                                                   signed in and out of the facility, and
                                                                                   escorted as required.

8.4   Traditional security         As part of the site certification and           Interviewed FSO personnel about the         No relevant exceptions were noted.
      reviews are performed.       accreditation process, a periodic               system classification levels and how they
                                   traditional security review is conducted        affect the traditional security review
                                   by the certifying authority at least every      process and schedule.
                                   3 years or more frequently based on the
                                                                                   Inspected the traditional security review   No relevant exceptions were noted.
                                   classification levels processed by the site.
                                                                                   schedule provided by the FSO to
                                                                                   determine whether the reviews were
                                                                                   being performed in accordance with the
                                                                                   system classification levels.
                                                                                   Inspected DITSCAP documentation and         No relevant exceptions were noted.
                                                                                   the traditional security review for 17
                                                                                   DECCs to determine the date of the last
                                                                                   traditional security review.



Logical Access Controls
No.   Control Objectives           Control Techniques                              Test of Operating Effectiveness             Results of Testing
9     Controls provide reasonable assurance that adequate logical access controls have been implemented.

      Design Weakness:
      CS does not have control procedures in place to ensure that adequate logical access controls have been implemented. Specifically, control procedures are
      needed to ensure the following: (a) password configurations are in compliance with DoD STIGs and (b) all access paths have been identified and controls
      implemented to prevent and detect access.




                                                                                  43
9.1   Passwords, tokens, or other    Password configuration requirements at       Inspected system-generated                  Refer to item (a) of the design
      devices are used to identify   the system level will be in compliance       documentation for a sample of 48 UNIX,      weakness. For 7 of 54 Windows, 23 of
      and authenticate users.        with appropriate DoD STIG.                   54 Windows, 20 mainframe, and 19            48 UNIX, 7 of 19 network devices, and
                                                                                  network devices managed by the SMCs         3 of 20 mainframe computer systems
                                                                                  and ISCs to determine whether the           tested, password configurations were
                                                                                  password configuration settings are in      not set in accordance with the
                                                                                  compliance with the appropriate DoD         appropriate DoD STIG.
                                                                                  STIG.

                                     Passwords are checked for compliance         Interviewed the IAM or SA at the SMCs       No relevant exceptions were noted.
                                     with DoD STIG standards as part of the       to obtain an understanding of the process
                                     DISA-approved scanning tool,                 for checking compliance with DoD
                                     password- cracking utilities, or SRRs.       STIGs and for scheduling the annual
                                     Servers are checked with the automated       reviews to accommodate customer
                                     scripts on a periodic basis. Schedule for    production, system maintenance, and
                                     annual reviews will be established           system update or upgrade requirements.
                                     locally in order to accommodate
                                     customer production, system                  Inspected supporting documentation for      No relevant exceptions were noted.
                                     maintenance, and system update or            performing local SRRs.
                                     upgrade requirements.

                                     Vendor-supplied default logons and           Inspected system-generated                  No relevant exceptions were noted.
                                     passwords are removed, changed, or           documentation for a sample of 48 UNIX,
                                     disabled in accordance with appropriate      54 Windows, 20 mainframe, and 19
                                     DoD STIG.                                    network devices managed by the SMCs
                                                                                  and ISCs to determine whether the
                                                                                  vendor-supplied default logons and
                                                                                  passwords were removed, changed, or
                                                                                  disabled in accordance with the
                                                                                  appropriate DoD STIG.

9.2   Equipment and media are        Sanitation of equipment and media prior      Interviewed CS operations staff at the      No relevant exceptions were noted.
      sanitized prior to disposal    to disposal or reuse are performed in        SMCs to determine whether there was a
      or reuse.                      accordance with DoD Regulation               process for compliance with DoD
                                     5200.1-R, the Security Handbook, and         Regulation 5200 1-R and Security
                                     the Assistant Secretary of Defense           Handbook Section 3.5.
                                     (Command, Control, Communications,

                                                                                 44
                                   and Intelligence) Memorandum,
                                                                               Reviewed logs at the SMCs for evidence     No relevant exceptions were noted.
                                   “Disposition of Unclassified DoD
                                                                               of proper sanitation procedures.
                                   Computer Hard Drives,” dated June 4,
                                   2001.

9.3   All access paths have been   The operating system and                    Inspected system-generated                 Refer to item (b) of the design
      identified and controls      communications software are configured      documentation for a sample of 48 UNIX,     weakness. For 67 of 141 computer
      have been implemented to     to prevent circumvention of security        54 Windows, 20 mainframe, and 19           systems tested, operating system and
      prevent or detect access.    software controls and unauthorized          network devices managed by the SMCs        communications software were not
                                   access from all paths.                      and ISCs and, where available, other       configured in accordance with the
                                                                               authorization (waiver) documentation to    appropriate STIGs to prevent
                                                                               determine whether the operating system     circumvention of security.
                                                                               and communications software are
                                                                               configured to prevent circumvention of
                                                                               security software controls and
                                                                               unauthorized access from all paths.

                                   Access paths are identified within the      Inspected the network diagram for the      No relevant exceptions were noted.
                                   communications topography for each CS       CCCs to determine whether the diagram
                                   site. The communication topography          shows connections from the wide-area
                                   shows connections from the wide-area        network into the perimeter point of
                                   network into the perimeter point of         presence down to the individual Internet
                                   presence down to the individual Internet    Protocol addresses of all devices within
                                   Protocol addresses of all devices within    the enclave.
                                   the enclave.

                                   System software is configured in            Inspected system-generated                 Refer to item (b) of the design
                                   accordance with the DoD STIGs.              documentation for a sample of 48 UNIX,     weakness. For 67 of 141 computer
                                                                               54 Windows, 20 mainframe, and 19           systems tested, systems software was
                                                                               network devices managed by the SMCs        not configured in accordance with the
                                                                               and ISCs and, where available, other       appropriate DoD STIGs and CS
                                                                               authorization (waiver) documentation to    policies.
                                                                               determine whether the systems software
                                                                               was configured in accordance with DoD
                                                                               STIGs and CS policies.




                                                                              45
                                  Access to data files, software programs,     Inspected system-generated                   Refer to item (b) of the design
                                  and databases is controlled by the           documentation for a sample of 48 UNIX,       weakness. For 67 of 141 computer
                                  configuration setting as described in        54 Windows, 20 mainframe, and 19             systems tested, systems software was
                                  accordance with the DoD STIGs.               network devices managed by the SMCs          not configured in accordance with the
                                                                               and ISCs and, where available, other         appropriate DoD STIGs.
                                                                               authorization (waiver) documentation to
                                                                               determine whether access to data files,
                                                                               software programs, and databases is
                                                                               controlled by the configuration setting as
                                                                               describe in accordance with the DoD
                                                                               STIGs.

                                  Network diagrams are developed and           Inspected the network diagram for the        No relevant exceptions were noted.
                                  maintained by the CCC to show potential      CCCs to determine whether the potential
                                  access paths.                                access paths are indicated.



Networks and Telecommunications
No.    Control Objectives         Control Techniques                           Test of Operating Effectiveness              Results of Testing
10     Controls provide reasonable assurance that networks and telecommunications are secure.

10.1   Telecommunication          CCC sites will maintain a current            Inspected the network topology for the       No relevant exceptions were noted.
       defense capabilities are   drawing of their network topology that       CCCs to determine whether all external
       implemented.               includes all external and internal links,    and internal links, subnets, and network
                                  subnets, and network equipment in            equipment in accordance with DoD
                                  accordance with DoD STIGs.                   STIGs are included.

                                  Dial-in telephone numbers are not            Interviewed the IAM or SM for the            No relevant exceptions were noted.
                                  published and are periodically changed.      SMCs about the process to control dial-
                                                                               in telephone numbers from being
                                                                               published.

                                  Telecommunications access is controlled      Interviewed network management staff         No relevant exceptions were noted.
                                  by the managing CCC for the network          at the CCCs about their process to
                                  devices, including firewall and network      manage the network devices. Inspected

                                                                              46
No.    Control Objectives             Control Techniques                            Test of Operating Effectiveness              Results of Testing
                                      IDSs, for all sites within the continental    the network topology at the CCCs to
                                      United States for unclassified wide-area      determine whether the management of
                                      networks. CCC personnel have access to        these network devices is restricted to the
                                      those networks through the out-of-band        out-of-band private network.
                                      virtual private network tunnel for all
                                      networks so equipped.

10.2   Network defense                Network access paths are configured to        Attempted to access the network              Networks at the SMCs were not
       capabilities are               prevent circumvention of security and         internally and externally at the SMCs to     configured to prevent circumvention of
       implemented.                   unauthorized access, in accordance with       determine whether access paths were          security and unauthorized access, in
                                      DoD STIGs.                                    configured to prevent circumvention of       accordance with DoD STIGs
                                                                                    security and unauthorized access, in
                                                                                    accordance with DoD STIGs.

                                      Networking equipment is configured in         Inspected system-generated                   Of 19 network devices tested, 7 were
                                      accordance with DoD STIGs                     documentation for a sample of 19             not configured in accordance with DoD
                                                                                    network devices managed by the SMCs          STIGs.
                                                                                    and ISCs and, where available, system-
                                                                                    generated documentation and other
                                                                                    authorization (waiver) documentation to
                                                                                    determine whether the devices were
                                                                                    controlled by the configuration setting as
                                                                                    promulgated by DoD STIGs.

10.3   Remote and dial-up             Remote access is established in               Inspected user access agreements for a       Of 180 users tested, 35 did not have the
       capabilities are controlled.   accordance with DoD STIGs.                    sample of 180 users at the 3 SMCs with       appropriate authorization for remote
                                                                                    remote access privileges to determine        access. The 35 users were from 3
                                                                                    whether:                                     SMCs.
                                                                                    •   the signed agreement includes the
                                                                                        type of access required by the user;
                                                                                    •   the signed agreement includes the
                                                                                        responsibilities, the liabilities, and
                                                                                        security measures (for example,
                                                                                        malicious code detection training)
                                                                                        involved in the use of their remote



                                                                                   47
No.    Control Objectives           Control Techniques                          Test of Operating Effectiveness            Results of Testing
                                                                                    access device;
                                                                                • incident handling and reporting
                                                                                    procedures are identified along with
                                                                                    a designated point of contact;
                                                                                • the remote user can be held
                                                                                    responsible for damage caused to a
                                                                                    Government system or data through
                                                                                    negligence or a willful act;
                                                                                • the policy contains general security
                                                                                    requirements and practices and will
                                                                                    be acknowledged and signed by the
                                                                                    remote user;
                                                                                • Government-owned hardware and
                                                                                    software will be used for official
                                                                                    duties only; and
                                                                                • the user is the only individual
                                                                                    authorized to use this equipment.

                                                                                Inspected the authentication mechanism     The three SMCs tested did not use
                                                                                for remote access for three SMCs to        2-factor authentication for remote
                                                                                determine whether a 2-factor               access.
                                                                                authentication method was in place.


Incident Response
No.    Control Objectives           Control Techniques                          Test of Operating Effectiveness            Results of Testing
11     Controls provide reasonable assurance that an effective incident response capability has been implemented.

11.1   Incident response controls   The DISA Instruction 360-225-1              Inspected documentation for a sample of    Of 242 incidents at the SMCs and 2
       are implemented at DISA.     provides guidance on handling incidents,    242 incidents at the SMCs and 2 ISCs to    ISCs tested, 51 incident reports were
                                    incident reporting structure, and           determine whether the questionnaire was    not completed in accordance with DISA
                                    prioritization of incidents that are        completed in accordance with DISA CS       CS Instruction 360-225-1.
                                    consistent with attributes noted in DoD     Instruction 360-225-1. Specifically, the
                                    Instruction 8500.2. Trouble                 following items from the Trouble
                                    Management System tickets or e-mails        Management System questionnaire were

                                                                               48
                                      are used as incident response and            inspected.
                                      reporting tools for CS. Specifically, the    • What was the root cause of the
                                      following items from the Trouble                 problem?
                                      Management System questionnaire must         • What troubleshooting efforts were
                                      be completed.                                    conducted?
                                      • What was the root cause of the             • Were redundant systems available
                                           problem?                                    and working?
                                      • What troubleshooting efforts were          • Was overall impact of the outage on
                                           conducted?                                  the customer’s mission confirmed?
                                      • Were redundant systems available           • Were scheduled batch processing
                                           and working?                                jobs delayed?
                                      • Confirm overall impact the outage          •    If the reporting site remotely
                                           has on the customer mission.                managed the application or
                                      • Were scheduled batch processing                equipment that has the problem,
                                           jobs delayed?                               was the physical location of the
                                      • If the reporting site remotely                 equipment and application
                                           manages the application or                  provided?
                                           equipment that has the problem,
                                           provide physical location of the
                                           equipment and application.


Access Monitoring
No.    Control Objectives             Control Techniques                           Test of Operating Effectiveness            Results of Testing
12     Controls provide reasonable assurance that access is monitored, suspected security violations are investigated, and
       appropriate remedial action is taken.

       Design Weakness:
       CS does not have control procedures in place to ensure that access is monitored, suspected security violations are investigated, and appropriate remedial action
       is taken. Specifically, control procedures are needed to ensure that audit trails are being maintained and reviewed.

12.1   Audit trails are maintained.   System auditing is enabled in accordance     Inspected system-generated                 Of the 141 systems tested, system
                                      with DoD STIGs.                              documentation for a sample of 141          auditing was not enabled for 23 systems
                                                                                   computer systems to determine whether      and system permission settings for



                                                                                  49
No.    Control Objectives            Control Techniques                            Test of Operating Effectiveness             Results of Testing
                                                                                   system auditing is enabled in accordance    auditing logs were not configured
                                                                                   with DoD STIGs.                             correctly for 10 systems.

                                     System auditing review is in accordance       Interviewed the SAs at the SMCs and         Refer to the design weakness. At two
                                     with DoD STIGs.                               ISCs to determine whether system            SMCs and two ISCs, there was no
                                                                                   auditing is reviewed in accordance with     periodic, scheduled review of audit
                                                                                   DoD STIGs.                                  logs.

                                     Auditing is conducted in accordance           Interviewed the SAs at the SMCs and         Refer to the design weakness. At two
                                     with DoD STIGs.                               ISCs to determine whether system            SMCs and two ISCs, there was no
                                                                                   auditing is conducted in accordance with    periodic, scheduled auditing conducted.
                                                                                   DoD STIGs.

12.2   Actual or attempted           Network intrusion detection systems           Interviewed CCC staff and inspected the     No relevant exceptions were noted.
       unauthorized, unusual, or     used to monitor unusual or inappropriate      CCC network diagram to determine
       sensitive network access is   activity are installed in accordance with     whether an external network intrusion
       monitored.                    the DoD STIGs.                                detection system is installed and
                                                                                   implemented and whether all external
                                                                                   connections are monitored.

                                                                                   Interviewed CCC staff and inspected the     No relevant exceptions were noted.
                                                                                   CCC network diagram to determine
                                                                                   whether an internal network intrusion
                                                                                   detection system (IDS) is installed and
                                                                                   implemented and whether all internal
                                                                                   connections are monitored.

                                     Procedures are in place for monitoring,       Interviewed the IAM, IAO, or SM at the      No relevant exceptions were noted.
                                     investigating, and reporting inappropriate    CCCs to gain an understanding of the
                                     or unusual activity. The DoD STIG             process followed when monitoring,
                                     outlines what activity constitutes            investigating, and reporting
                                     inappropriate or unusual activities.          inappropriate or unusual system activity.

                                                                                   Inspected the site’s network monitoring     No relevant exceptions were noted.
                                                                                   policy at the CCCs to determine whether
                                                                                   the policy was in accordance with DoD
                                                                                   STIGs and whether the policy identified
                                                                                  50
No.    Control Objectives             Control Techniques                            Test of Operating Effectiveness             Results of Testing
                                                                                    thresholds for an inappropriate or
                                                                                    unusual event.

12.3   Suspicious network access      Suspicious access activity is investigated    Interviewed CCC staff to determine          No relevant exceptions were noted.
       activity is investigated and   and appropriate action taken in               whether suspicious network activity is
       appropriate action is taken.   accordance with DISA Instruction              investigated and appropriate action
                                      360-225-1 and CS Policy Letter                taken.
                                      CSD 06-02.



Change Control
No.    Control Objectives             Control Techniques                            Test of Operating Effectiveness             Results of Testing

13     Controls provide reasonable assurance that changes to DISA-owned assets are properly controlled.

13.1   DISA-initiated software or     For customer-requested changes: In            Inspected documentation for a sample of     Of 175 change requests, 3 were not
       hardware modifications are     accordance with CS Change and                 175 change requests at the SMCs and         approved by a supervisor or the local
       authorized, and the            Configuration Concept of Operations,          two ISCs to determine whether changes       Change Control Board. The exceptions
       documentation is               proposed changes to hardware, operating       are reviewed and approved in                were from 1 SMC and 1 ISC
       maintained.                    system, utility software,                     accordance with the CS Change and
                                      communications, and networks are              Configuration Concept of Operations,
                                      reviewed and approved. Local Change           local Change Control Boards are in place
                                      Control Boards are in place at each of the    at the SMCs and ISCs, and the IAM is a
                                      SMCs and two ISCs to oversee the              voting member of the Change Control
                                      change review and approval process.           Board.
                                      The site IAM is a voting member of the
                                      local Change Control Boards.

                                      Verification and acceptance of operating      Interviewed change management staff at      No relevant exceptions were noted.
                                      systems and utility software changes is       the SMCs to determine the various
                                      documented and approved, and operating        change management roles and
                                      systems and utility software movements        responsibilities, including the Board and
                                      are controlled. The Executive Software        Software Factory.
                                      Change Control Board (the Board)



                                                                                   51
No.    Control Objectives           Control Techniques                         Test of Operating Effectiveness            Results of Testing
                                    provides this control for operating
                                                                               Inspected the Board operating procedure    No relevant exceptions were noted.
                                    systems and utility software DISA wide.
                                                                               document outlining the role of the Board
                                    Local change management controls the
                                                                               to determine whether the Board controls
                                    implementation of operating systems and
                                                                               the utility and operating system changes
                                    executive software changes at the SMC
                                                                               for four sites.
                                    and ISC level. All Board actions are
                                    documented and approved. Minutes of
                                                                               Inspected evidence to determine whether    No relevant exceptions were noted.
                                    each Board meeting are published, and
                                                                               all Board actions are documented and
                                    all documentation is maintained
                                                                               approved, and whether the minutes of
                                    indefinitely and is available online or
                                                                               Board meetings are available.
                                    upon request. The actual movement of
                                    IBM mainframe software is tightly
                                                                               Inspected the System Software Office       No relevant exceptions were noted.
                                    controlled by the Board and Software
                                                                               product procedure installation guide for
                                    Factory interface. All software
                                                                               the mainframe systems at one site to
                                    distributed by the Software Factory is
                                                                               determine whether all software
                                    tracked, notifications are provided to
                                                                               distributed by the Software Factory is
                                    appropriate organizations, and a
                                                                               tracked, notifications are provided to
                                    complete audit trail is retained.
                                                                               appropriate organizations, and a
                                                                               complete audit trail is retained.

13.2   New and modified             New systems and changes to existing        Inspected documentation for a sample of    No relevant exceptions were noted.
       hardware and operating       systems are reviewed by an approving       128 change requests for new and
       system or utility software   authority prior to connection to the       existing systems at the SMCs to
       is tested and controlled     network in accordance with CS Policy       determine whether changes are reviewed
       according to specific        Letter CSD 05-09.                          by an approving authority prior to
       criteria.                                                               connection to the network.

                                    Changes to hardware and operating          Inspected a sample of 74 Change            No relevant exceptions were noted.
                                    systems software are documented in the     Control Board meeting minutes for three
                                    minutes of the Change Control Board.       SMCs and one ISC where the control is
                                                                               applicable to determine whether
                                                                               hardware and operating systems
                                                                               software changes are documented.

                                    As part of the SSOPAC process for IBM      Interviewed System Software Office         No relevant exceptions were noted.
                                    mainframe operating system software        management personnel for the IBM

                                                                              52
No.    Control Objectives      Control Techniques                         Test of Operating Effectiveness           Results of Testing
                               releases:                                  mainframes based at DECC
                                                                          Mechanicsburg to determine the process
                               •   integration testing is performed to
                                                                          for performing integration tasking,
                                   ensure functionality;
                                                                          performance and stress testing, and
                               •   performance and stress testing is
                                                                          security testing on IBM mainframe
                                   performed, as required, to identify
                                                                          operating system releases.
                                   impacts on system performance; and
                               •   security testing is performed for
                                   each operating system software
                                   release. Based upon test results,
                                   actions are initiated to rectify
                                   identified software deficiencies,
                                   performance impacts, and security
                                   problems.

13.3   Emergency changes are   Emergency change procedures are            Inspected the CS Change and               No relevant exceptions were noted.
       promptly approved.      documented in the CS Change and            Configuration Management Plan to
                               Configuration Management Plan.             determine whether emergency change
                                                                          procedures are defined and documented.

                                                                          Inspected documentation for a sample of   Of 96 emergency changes tested, 2
                                                                          96 emergency changes at 3 SMCs and 1      changes at 1 SMC were not approved
                                                                          ISC to determine whether:                 by management.
                                                                          •   the emergency changes were
                                                                              recorded and approved by
                                                                              management; and
                                                                          •   normal change request forms and
                                                                              related documentation were
                                                                              completed after the emergency
                                                                              change occurred.

                                                                          Inspected documentation for a sample of   For eight emergency changes at one
                                                                          78 emergency changes at 3 SMCs to         SMC, no independent review was
                                                                          determine whether an independent          documented.
                                                                          review of each change was performed.



                                                                         53
 No.     Control Objectives            Control Techniques                           Test of Operating Effectiveness               Results of Testing

 13.4    Movement of programs          Mainframe Executive Software products        Inspected system documentation from           No relevant exceptions were noted.
         and data among libraries is   are recorded and tracked. Inventories are    the Mechanicsburg Software Factory for
         controlled.                   maintained, which include version,           mainframe systems to determine whether
                                       maintenance level, out-of-support date,      mainframe executive software programs
                                       and documentation.                           are recorded and tracked, and an
                                                                                    inventory is maintained that includes the
                                                                                    version, maintenance level, out-of-
                                                                                    support date, and related documentation.

 13.5    Use of public domain and      Use of personal and public domain            Inspected the contents of 56 employees’       Of 56 sampled computers, 35
         personal software is          software on Government equipment is in       computers at the SMCs and ISCs to             computers at the 4 SMCs and 2 ISCs
         restricted.                   accordance with DoD Directive 8500.1         determine whether the computers               contained unapproved, public domain
                                       and CS Operations policy.                    contained public domain and personal          or personal software.
                                                                                    software not approved in accordance
                                                                                    with DoD Directive 8500.1 and CS
                                                                                    Operations policy.



Service Continuity
No.     Control Objectives              Control Techniques                              Test of Operating Effectiveness            Results of Testing
14      Controls provide reasonable assurance that procedures and controls are in place to prevent or minimize unexpected
        interruptions.

14.1    Data and program backup         Each site has implemented its own off-          Interviewed computer center operations     No relevant exceptions were noted.
        procedures have been            site and transportation agreements in           staff at the SMCs and ISCs to determine
        implemented.                    accordance with SLA requirements.               their off-site and transportation
                                                                                        requirements for backup media.

                                                                                        Inspected the off-site transportation      No relevant exceptions were noted.
                                                                                        agreement for the SMCs and ISCs to
                                                                                        determine whether backup media is
                                                                                        transported to the off-site location in
                                                                                        accordance with SLA requirements.


                                                                                   54
No.   Control Objectives   Control Techniques                        Test of Operating Effectiveness            Results of Testing
                           Data and program backup procedures are    Inspected the off-site transportation      No relevant exceptions were noted.
                           conducted in accordance with the          agreement for the SMCs and ISCs to
                           appropriate DoD STIGs, SLA                determine whether the agreement
                           requirements, and CS Policy Letter 06-    included the following:
                           01.
                                                                     •   a schedule for the weekly full data
                                                                         backup;
                                                                     •   a schedule for an incremental daily
                                                                         backup;
                                                                     •   a schedule for monthly full system
                                                                         backup;
                                                                     •   detailed backup procedures;
                                                                     •   a plan for rotating backup media;
                                                                     •   detailed restoration procedures;
                                                                     •   customer requirements, a copy of a
                                                                         memorandum of agreement, and a
                                                                         copy of any SLA;
                                                                     •   storage and retention procedures for
                                                                         backup media;
                                                                     •   schedule and methodology for
                                                                         testing restoration procedures;
                                                                     •   procedures for maintaining a
                                                                         historical file for the “root”
                                                                         password in a controlled access
                                                                         environment; and
                                                                     •   backup procedures that are tested at
                                                                         least annually.
                                                                     Interviewed staff and inspected            No relevant exceptions were noted.
                                                                     documentation for the SMCs and ISCs
                                                                     to determine whether data and program
                                                                     backup procedures are in compliance
                                                                     with DoD STIGs, SLA requirements,
                                                                     and CS Policy Letter 06-01.




                                                                55
No.    Control Objectives            Control Techniques                              Test of Operating Effectiveness          Results of Testing
14.2   Environmental controls have   Computing facilities and support areas          Interviewed data center personnel and    At one DECC, no agreement could be
       been implemented.             have automatic notification of activation       inspected the data center for the 17     located to demonstrate firefighting
                                     of smoke detectors that alarm locally and       DECCs to determine whether the           support provided by the base.
                                     at supporting fire department.                  following environmental controls were
                                                                                     in place:                                At two DECCs, a copy of the last fire
                                     Some administration areas have                                                           marshal inspection was not available.
                                                                                     •   fire detection, prevention, and
                                     automatic notification of activation of
                                                                                         suppression mechanisms;
                                     smoke detectors. Some of these only                                                      At one DECC, the fire department is not
                                                                                     •   air conditioning, temperature, and
                                     alarm locally; some alarm locally and at                                                 automatically notified in case of fire.
                                                                                         humidity control systems;
                                     the supporting fire department.
                                                                                     •   uninterrupted power supplies,
                                                                                         voltage regulators, and backup
                                     Fire inspections are made based on local
                                                                                         generators.
                                     site rules.

                                     Computing facilities and support areas
                                     have automatic activation of fire
                                     suppression systems.

                                     Administration areas have either
                                     automatic activation of fire suppression
                                     systems or hand-held extinguishers
                                     located throughout the area.

                                     All computer facilities have:                   Interviewed data center personnel and    One DECC did not have humidity
                                                                                     inspected the data center for the 17     control devices installed.
                                     •   automatic humidity and temperature
                                                                                     DECCs to determine whether the
                                         controls systems that alarm when
                                                                                     following environmental controls were
                                         established humidity and
                                                                                     in place:
                                         temperature conditions are
                                         exceeded;                                   • automatic humidity and temperature
                                     •   a master power switch located at or              controls systems that alarm,
                                         near the main entrance, which is            • a master power switch located at or
                                         labeled and protected by a cover to              near the main entrance,
                                         prevent accidental shut-off;                • automatic voltage control systems,
                                     •   automatic voltage control systems           • a minimum of two electrical feeds,
                                         that alarm if the voltage fluctuates        • battery powered uninterrupted
                                         beyond established safe operating                power system, and

                                                                                56
No.    Control Objectives     Control Techniques                          Test of Operating Effectiveness            Results of Testing
                                 levels;                                  • backup generators that are set to
                              • a minimum of two electrical feeds;            automatically start.
                              • battery-powered, uninterrupted
                                 power system to provide sufficient
                                 power to all systems in the computer
                                 room to allow for at least 20 minutes
                                 of operations; and
                                 backup generators that are set to
                                 automatically start and generate
                                 power when commercial power
                                 fails. The generators are tested
                                 monthly for operations and power
                                 generations. Additional fuel and
                                 spare parts are on hand to provide
                                 for sustained operations.

14.3   Hardware maintenance   Routine periodic preventive maintenance     Interviewed computer operations staff      At one ISC, testing of the water sensors
       controls have been     on facilities equipment is scheduled and    for the SMCs and ISCs to determine the     was not conducted to determine if the
       implemented.           performed in accordance with vendor         process for scheduling preventive          sensors are operable.
                              specifications and in a manner that         maintenance on facilities equipment and
                              minimizes the impact on operations.         tracking completion of scheduled
                                                                          maintenance.

                              Records are maintained on the actual        Interviewed operations and facility        No relevant exceptions were noted.
                              performance in meeting facilities           management to determine the process
                              equipment service schedules.                for scheduling, monitoring, and tracking
                                                                          completion of maintenance on facilities
                                                                          equipment.

                              Policies and procedures for IT equipment    Inspected the IT equipment maintenance     No relevant exceptions were noted.
                              maintenance exist and are up-to-date.       policies and procedures at CS Logistics
                                                                          to determine whether the policies and
                                                                          procedures exist and are up-to-date.




                                                                     57
No.   Control Objectives   Control Techniques                             Test of Operating Effectiveness            Results of Testing
                           Routine periodic preventive maintenance        Interviewed computer operations staff at   No relevant exceptions were noted.
                           on IT equipment is scheduled and               the SMCs and ISCs to determine the
                           performed in accordance with vendor            process for scheduling, monitoring, and
                           specifications and in a manner that            tracking completion of maintenance on
                           minimizes the impact on operations or as       IT equipment.
                           provided for in the maintenance contract.
                                                                          Inspected 255 IT equipment                 No relevant exceptions were noted.
                                                                          maintenance tickets at the SMCs and 1
                                                                          ISC to determine whether scheduled
                                                                          maintenance is completed.

                           Regular and unscheduled maintenance            Interviewed computer operations staff      No relevant exceptions were noted.
                           on IT equipment is performed and               for the SMCs and ISCs to determine the
                           documented.                                    process for scheduling maintenance on
                                                                          IT equipment and documenting
                                                                          completion of scheduled maintenance.

                           Flexibility exists in the data processing      Interviewed computer operations staff      No relevant exceptions were noted.
                           operations to accommodate regular and a        for the SMCs and ISCs on their process
                           reasonable amount of unscheduled               for determining flexibility in the data
                           maintenance.                                   processing operations to accommodate a
                                                                          regular and reasonable amount of
                                                                          unscheduled maintenance.

                           Spare or backup hardware is used to            Interviewed computer operations staff      No relevant exceptions were noted.
                           provide a high level of system                 for the SMCs and ISCs to determine
                           availability for critical and sensitive        whether spare or backup hardware
                           applications.                                  inventory existed.

                           Goals are established by senior                Interviewed site management at CSD         No relevant exceptions were noted.
                           management on the availability of data         Headquarters and CDS Operations to
                           processing and on-line services.               determine whether availability goals are
                                                                          established and documented for data
                                                                          processing and on-line services.



                                                                     58
No.    Control Objectives           Control Techniques                            Test of Operating Effectiveness            Results of Testing
                                    Records are maintained on the actual          Interviewed operations management to       No relevant exceptions were noted.
                                    performance in meeting IT equipment           determine the process for scheduling,
                                    service schedules.                            monitoring, and tracking completion of
                                                                                  scheduled maintenance on IT equipment.

                                    Regular and unscheduled maintenance           Interviewed computer operations staff      No relevant exceptions were noted.
                                    on facilities equipment is performed and      for the SMCs and ISCs to determine the
                                    documented.                                   process for scheduling, monitoring, and
                                                                                  tracking completion of maintenance on
                                                                                  facilities equipment, preventive
                                                                                  maintenance procedures and schedule.

14.4   Staff have been trained to   Data center staff receive periodic training   Inspected training documentation for       Formal emergency response training
       respond to emergencies.      in emergency fire, flooding, and alarm        105 employees at 3 SMCs and the ISCs       has not been conducted on a regular
                                    incident procedures.                          to determine whether the employees had     basis. Of 105 employee records
                                                                                  received training in emergency fire,       reviewed, 29 at 2 ISCs did not complete
                                                                                  flooding, and alarm incident procedures.   the training.

                                    Data center employees have received           Inspected training documentation for       Of 105 employees, 29 at 2 ISCs did not
                                    training and understand their emergency       105 employees at 3 SMCs and the ISCs       complete formal training on their
                                    roles and responsibilities.                   to determine whether they had received     emergency roles and responsibilities.
                                                                                  training in emergency roles and
                                                                                  responsibilities.

                                    Emergency procedures are periodically         Inspected emergency plan and test          No relevant exceptions were noted.
                                    tested.                                       documentation for the SMCs and ISCs
                                                                                  to determine whether the test was
                                                                                  performed annually and whether the
                                                                                  results were documented.

                                    Emergency response procedures are             Inspected emergency response               No relevant exceptions were noted.
                                    documented.                                   procedures for the SMCs and ISCs to
                                                                                  determine whether they were
                                                                                  documented.




                                                                             59
Section IV: Supplemental Information Provided by DISA




                         61
The DISA 2005 Statement on Auditing Standards No. 70 project included some
conditions pertaining to security systems and procedures that are beyond the purview of
CS. The following is a summary of those issues that continue to require support from
external sources and were identified prior to inception of the 2006 project.

2005 Results of Testing Requiring DoD or DISA Enterprise Solutions

Audit Trails. The DoD Office of Inspector General recommended that the CS Director
implement more consistent procedures across the enterprise to create, monitor and
review, protect, and maintain CS system audit trails in order to comply with the
requirements of DoD Instruction 8500.2 and STIGs. In addition, it was recommended
that CS implement and configure software audit capabilities such that security personnel
could extract critical events from system data on a daily basis; conduct in-depth, daily
reviews of all audit trails for suspicious activity; and investigate security incidents with
automated access to all audit data.

        Status: DISA does not currently have the automated tools required to meet these
objectives. Implementation of the appropriate programs is pending implementation
resources and technical recommendations from the DISA FSO.

Host-Based Intrusion Detection Systems. It was recommended that the CS Director
deploy host-based intrusion detection systems software on all major application servers,
network management assets, and domain name servers, in accordance with DoD
Instruction 8500.2 and the STIGs.

        Status: DoD has awarded a contract for an enterprise-wide, host-based security
solution. CS is awaiting implementation of the DoD-wide, host-based security solution.

2006 Results of Testing Requiring DoD or DISA Enterprise Solutions

Vulnerability Management System (VMS). The 2006 Statement on Auditing
Standards No. 70 project included results of testing that indicated noncompliance with
DoD STIGs and POA&Ms. It is significant to note that the tool used to track
vulnerabilities (VMS 6.0), originally scheduled to be implemented in December 2005,
was delayed until May 2006, in the middle of the diagnostic testing phase of the audit.
Because all CS controls and control techniques were developed and implemented based
on an operational VMS 6.0, several gaps were observed in POA&M documentation (a
new requirement for VMS 6.0) that support actions and mitigations for identified
vulnerabilities. In short, the majority of POA&M findings in this area are attributable to
the VMS upgrade from 5.4 to 6.0 and do not indicate a lack of CS enforcement of the
DoD STIGs and CS policy regarding POA&Ms.




                                             63
Scope
Defense Enterprise Computing Centers in Scope of This Report

  Systems Management Centers
    Mechanicsburg, Pennsylvania
    Montgomery, Alabama
    Ogden, Utah
    Oklahoma City, Oklahoma

  Infrastructure Services Centers
     Columbus, Ohio
     San Antonio, Texas
     St. Louis, Missouri

  Processing Elements
     Chambersburg, Pennsylvania
     Dayton, Ohio
     Denver, Colorado
     Huntsville, Alabama
     Jacksonville, Florida
     Norfolk, Virginia
     Rock Island, Illinois
     San Diego, California
     Warner Robins, Georgia

  Pacific, Pearl Harbor, Hawaii




                                      65
Acronyms and Abbreviations
BMC       Business Management Center
CCC       Communications Control Center
CIO       Chief Information Officer
CS        Center for Computing Services
DAA       Designated Approving Authority
DECC      Defense Enterprise Computing Center
DISA      Defense Information System Agency
DITSCAP   Defense Information Technology Certification and Accreditation Process
DoD       Department of Defense
FSO       Field Security Operations
GIG       Global Information Grid
GSA       General Services Administration
IA        Information Assurance
IAM       Information Assurance Manager
IAO       Information Assurance Officer
IAR       Information Assurance Review
IDS       Intrusion Detection System
ISC       Infrastructure Services Center
IT        Information Technology
MAC       Mission Assurance Category
MPS       Manpower, Personnel, and Security
OMB       Office of Management and Budget
PE        Processing Element
POA&M     Plan of Action and Milestones
SA        System Administrator
SLA       Service-Level Agreement
SM        Security Manager
SMC       System Management Center
SRR       Security Readiness Review
SSAA      System Security Authorization Agreement
SSO       System Support Office
STIG      Security Technical Implementation Guide
VMS       Vulnerability Management System




                                      67
Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
Commander, U.S. Strategic Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget
Government Accountability Office




                                          69
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        70
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service, in conjunction with contract auditors from
Ernst & Young LLP, prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Paul J. Granetto
Patricia A. Marsh
Patricia C. Remington
Suzette L. Luecke
Anh Tran
Michael L. Davitt
Chi H. Lam
Chanda D. Lee-Baynard
Danial Olberding
Ernest Fine
Minh Tran
Wen-Tswan Chen
Christopher Bitakis
